<html>
<title> - BUILDING ON WHAT WORKS AT CHARTER SCHOOLS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         BUILDING ON WHAT WORKS
                           AT CHARTER SCHOOLS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, JUNE 4, 2009

                               __________

                           Serial No. 111-25

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
49-880                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 4, 2009.....................................     1

Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     6
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado, prepared statement of...................     8

Statement of Witnesses:
    Barr, Steve, founder and chairman, Green Dot Public Schools..    17
        Prepared statement of....................................    19
    Dunn, David, executive director, Texas Charter Schools 
      Association................................................    30
        Prepared statement of....................................    32
    Goenner, James N., executive director, the Center for Charter 
      Schools, Central Michigan University.......................    24
        Prepared statement of....................................    26
    King, Dr. John B., Jr., managing director, Excellence 
      Preparatory Network, Uncommon Schools......................    20
        Prepared statement of....................................    22
    O'Brien, Hon. Barbara, Lieutenant Governor, State of Colorado    15
        Prepared statement of....................................    16
    Shelton, James H. III, Assistant Deputy Secretary for 
      Innovation and Improvement, U.S. Department of Education...    10
        Prepared statement of....................................    12


                         BUILDING ON WHAT WORKS
                           AT CHARTER SCHOOLS

                              ----------                              


                         Thursday, June 4, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:04 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Andrews, Woolsey, 
Hinojosa, McCarthy, Tierney, Kucinich, Davis, Bishop of New 
York, Loebsack, Hare, Courtney, Shea-Porter, Fudge, Polis, 
Titus, McKeon, Petri, Ehlers, Biggert, Platts, Hunter, and Roe.
    Staff present: Tylease Alli, Hearing Clerk; Catherine 
Brown, Senior Education Policy Advisor (K-12); Alice Cain, 
Senior Education Policy Advisor (K-12); Fran-Victoria Cox, 
Staff Attorney; Adrienne Dunbar, Education Policy Advisor; 
Denise Forte, Director of Education Policy; David Hartzler, 
Systems Administrator; Fred Jones, Staff Assistant, Education; 
Ricardo Martinez, Policy Advisor, Subcommittee on Higher 
Education, Lifelong Learning and Competitiveness; Stephanie 
Moore, General Counsel; Alex Nock, Deputy Staff Director; Joe 
Novotny, Chief Clerk; Rachel Racusen, Communications Director; 
Melissa Salmanowitz, Press Secretary; Daniel Weiss, Special 
Assistant to the Chairman; Margaret Young, Staff Assistant, 
Education; Mark Zuckerman, Staff Director; Stephanie Arras, 
Minority Legislative Assistant; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Andrew Blasko, 
Minority Speech Writer and Communications Advisor; Robert 
Borden, Minority General Counsel; Cameron Coursen, Minority 
Assistant Communications Director; Alexa Marrero, Minority 
Communications Director; Chad Miller, Minority Professional 
Staff; Susan Ross, Minority Director of Education and Human 
Services Policy; Mandy Schaumberg, Minority Education Counsel; 
Linda Stevens, Minority Chief Clerk/Assistant to the General 
Counsel; and Sally Stroup, Minority Staff Director.
    Chairman Miller [presiding]. Good morning. A quorum being 
present, the committee will come to order. I am going to go 
ahead and start the hearing.
    Mr. McKeon is on his way, but I am informed that we will be 
having votes at around 11:15, and I certainly want to make time 
for the panel and hopefully for some questions by the members 
of the committee, because I think it is going to be a series of 
votes and it may--well, we will see where we are at that time, 
whether we ask the panel to remain or not.
    Anyway, welcome. Good morning. Today our committee meets to 
examine how we can build on what is working at outstanding 
charter schools as we continue our efforts to improve 
educational opportunities for all Americans. This hearing will 
explore the factors that contribute to successful charter 
schools as well as the barriers those schools face.
    We will also take a look at how high-performing charter 
schools can help inform school reform efforts. Many exceptional 
charter schools have already blazed a trail for others to 
follow.
    The first charter school opened its doors in 1992, and 
nearly two decades later there are 4,600 charter schools in 40 
states serving over 1.4 million children. Their success stories 
are proof that charter schools are an integral part of building 
a world-class American education system.
    Many of these high-performing charter schools are 
laboratories for innovation. Some of the most promising school 
reform strategies in recent years have been embraced by many 
leading charter schools.
    This includes extending learning time, hiring excellent 
teachers, raising expectations, using data-driven research and 
focusing relentlessly on results and accountability.
    They are proving that we can address disparities and close 
the achievement gap when we apply the right reforms and 
resources. They are proving that low-income and minority 
children, the exact populations that too often get left behind, 
are in fact able to succeed.
    Take, for example, Roxbury Prep charter school in Boston, 
whose student body is composed almost entirely of minorities. 
Of the 230 students attending Roxbury Prep, nearly 70 percent 
qualify for free or reduced-price lunch.
    I saw that in one of your testimonies. That is an R.F.--
what is that? That is a FRL? Somebody is shaking their head 
yes. Okay. So they would be 70 percent FRLs. Okay. Never mind.
    Roxbury Prep currently stands as one of the highest-
performing middle schools in Massachusetts. On the 2008 state 
exam, students at Roxbury Prep outperformed nearly 80 percent 
of all middle schools statewide.
    Another great example is the Knowledge Is Power Program, or 
KIPP. There are more than 16,000 students enrolled in 65 KIPP 
charter schools in 19 states and the District of Columbia.
    Over 80 percent of the KIPP students qualify for free or 
reduced-price meals, 63 percent are African American, 33 
percent are Hispanic. KIPP students start the fifth grade with 
average scores in the 41st percentile in math and the 31st 
percentile in language arts.
    By the end of the eighth grade, their scores nearly 
doubled. More than 80 percent of the students who complete 
eighth grade at KIPP go on to college.
    Or take the Harlem Children's Zone, whose mission is to do 
whatever it takes to help children succeed, combining charter 
schools with community services for children from birth to 
college graduation.
    Their successes are off the chart. The program has 
effectively closed the achievement gap in mathematics between 
black and white students in New York City, which in turn will 
open new doors and create new opportunities. They have also 
nearly closed the gap in language arts.
    For the sixth year in a row, 100 percent of the graduates 
of Harlem Children Zone's pre-K program are found to be school-
ready. In April, three female middle school students from the 
program won the national chess championship for their age 
group.
    These schools, and others like them, show an emergence of 
different educational culture. The students who are previously 
thought of as unable to benefit from public education are 
outperforming their peers.
    They are going to college and they are getting the the jobs 
of the future. They are mastering the skills needed to succeed 
and thrive in a 21st century global economy.
    These are models we can learn from to boost student 
achievement and improve accountability on a larger scale.
    Both President Obama and Secretary Duncan are outspoken 
advocates of charter schools. They agree that many of the bold 
reforms that are fundamental to building world-class schools 
are already happening in charter schools.
    The American Recovery and Reinvestment Act included an 
unprecedented $5 billion Race to the Top Fund that gives 
Secretary Duncan the tools to drive innovative reforms in 
schools.
    Among other things, he could use these funds to ask state 
legislatures to allow more charter schools, while ensuring the 
state maintains rigorous accountability. I am confident he will 
keep charter schools in mind as he decides how to use these 
funds.
    And that is why we are here today. We can no longer invest 
any more money in the status quo. Outstanding charter schools 
are helping millions of students learn, grow and thrive. The 
teachers in these schools are making strides we need every 
teacher in every classroom to make.
    And I would like to thank our witnesses for being here 
today. Your expertise will be helpful as we work to reward and 
replicate your impressive work in classrooms across the 
country.
    I would like now to recognize the senior Republican member 
of our committee, Congressman McKeon from California, for 
purpose of making an opening statement.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Today our committee meets to examine how we can build on what is 
working at outstanding charter schools as we continue our efforts to 
improve educational opportunities for all Americans.
    This hearing will explore the factors that contribute to successful 
charter schools, as well as the barriers these schools face.
    We'll also take a look at how high-performing charter schools can 
help inform school reform efforts. Many exceptional charter schools 
have already blazed a trail for others to follow.
    The first charter school opened its doors in 1992. Nearly two 
decades later, there are 4,600 charter schools in 40 states, serving 
over 1.4 million children.
    Their success stories are proof that charter schools are an 
integral part of building a world-class American education system.
    Many of these high-performing charter schools are laboratories of 
innovation.
    Some of the most promising school reform strategies in recent years 
have been embraced by many leading charter schools. This includes 
extending learning time, hiring excellent teachers, raising 
expectations, using data-driven research and focusing relentlessly on 
results.
    They are proving that we can address disparities and close the 
achievement gap when we apply the right reforms and resources.
    They are proving that low-income and minority students, the exact 
populations that too often get left behind, are in fact able to 
succeed.
    Of the 230 students attending Roxbury Prep, nearly 70 percent 
qualify for free or reduced price lunch.
    Roxbury Prep currently stands as one of the highest-performing 
middle schools in Massachusetts. On the 2008 state exam, students at 
Roxbury Prep outperformed nearly 80 percent of all middle schools 
statewide.
    Another great example is the Knowledge Is Power Program--or KIPP. 
There are more than 16,000 students enrolled in 65 KIPP charter schools 
in 19 states and the District of Columbia.
    Over 80 percent of KIPP students qualify for free or reduced price 
meals, 63 percent are African American, and 33 percent are Hispanic.
    KIPP students start fifth grade with average scores in the 41st 
percentile in math and the 31st percentile in language arts. By the end 
of eighth grade, their scores nearly doubled.
    More than 80 percent of students who complete the eighth grade at 
KIPP go on to college.
    Or take the Harlem Children's Zone, whose mission is to do whatever 
it takes to help children succeed, combining charter schools with 
community services for children from birth to college graduation. Their 
successes are off the charts.
    The program has effectively closed the achievement gap in 
mathematics between black and white students in New York City--which in 
turn will open new doors and create new opportunities. They've also 
nearly closed the gap in language arts.
    For the sixth year in a row, 100 percent of graduates from Harlem 
Children Zone's pre-K program were found to be school-ready. In April, 
three female middle school students from the program won the national 
chess championship for their age group.
    These schools, and others like them, show an emergence of a 
different educational culture. The students who were previously thought 
of as unable to benefit from a public education are outperforming their 
peers.
    They're going to college and they're getting the jobs of the 
future.
    They're mastering the skills needed to succeed and thrive in a 21st 
century global economy.
    These are models we can learn from to boost student achievement and 
improve accountability on a larger scale.
    Both President Obama and Secretary Duncan are outspoken advocates 
for charter schools.
    They agree that many of the bold reforms that are fundamental to 
building world-class schools are already happening in charter schools.
    The American Recovery and Reinvestment Act included an 
unprecedented $5 billion Race to the Top Fund that gives Secretary 
Duncan the tools to drive innovative reforms in schools.
    Among other things, he could use this fund to ask state 
legislatures to allow more charter schools, while ensuring that states 
maintain rigorous accountability.
    I am confident he'll keep charter schools in mind as he decides how 
to use the fund.
    We know that we can't invest any more money, time or energy in the 
status quo.
    Significant changes are needed to truly improve our schools, to 
make sure students graduate with 21st century skills, and to cultivate 
a workforce that can compete globally.
    That's why we're here today.
    Outstanding charter schools are helping millions of students learn, 
grow and thrive. The teachers in these schools are making the strides 
we need every teacher, in every classroom to make.
    I'd like to thank our witnesses for being here today. Your 
expertise will be very helpful as we work to reward and replicate your 
impressive work in classrooms across the country.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller, and good morning. I 
want to thank you for holding this important hearing and thank 
our witnesses for being here to shed light on a key opportunity 
to improve educational options for students and families.
    Republicans on this committee have been strongly committed 
to the charter school movement for quite some time, and we are 
pleased to see that the cause is now bipartisan.
    Charter schools are essential to turning around our 
nation's ailing public school system. They offer choices to 
parents and children, many of whom would otherwise be trapped 
in chronically underperforming public schools, and they have 
made great strides in raising achievement and tackling unique 
educational challenges, from urban centers to rural outposts.
    But despite their many successes, charter schools are not 
growing as they should. They face overwhelming barriers to 
expansion, from arbitrary state caps to hostile state 
legislators.
    Forty states and the District of Columbia have charter 
schools. Of those, 26 states and the District have a cap or 
limit on charter school growth, be it the number of schools per 
state or the number of students per school.
    These caps are often the consequence of legislative 
tradeoffs, representing political deal-making designed to 
appease special interests who prefer the status quo rather than 
reasoned education policy.
    As a result of these caps, children across the country now 
languish on daunting wait lists just waiting to enroll in the 
public school of their choice, simply because it happens to 
operate as a charter.
    An estimated 365,000 students are on charter school wait 
lists today. That is enough students to fully enroll 1,100 new 
average-sized charter schools. As I am sure our witnesses will 
tell us today, charter school advocates have always aspired to 
a rather humble goal.
    They simply want access to the same equal playing field as 
traditional public schools, to receive equal funding, equal 
facilities and equal treatment, so that the commitment to 
innovation has a real chance to succeed.
    And what makes these schools so innovative? While charter 
schools must adhere to the same guidelines and regulations as 
traditional public schools, they are freed from the red tape 
that often diverts a school's energy and resources away from 
educational experience--or excellence.
    Instead of constantly jumping through procedural hoops, 
charter school leaders can focus on setting and reaching high 
academic standards for their students.
    As we look to the future, our goal should not just be 
charter school expansion, but the expansion of charter school 
excellence. It is not enough to talk about the importance of 
charter schools. We have to take action.
    Paying lip service to charters while failing to enact the 
right policies or, worse, expanding charters while eliminating 
the features that make them work would be unfair to these 
schools, the innovators behind them and the students that they 
serve.
    Fortunately, these are steps that we can take to expand and 
replicate high-performing charter schools.
    Last Congress, Representative Charles Boustany introduced 
the Charter School Program Enhancement Act, legislation that 
would have increased awareness of the best practices among 
successful charter schools, and incentivized their growth by 
focusing funding on states without restrictive caps.
    It was our hope that this legislation would have made it 
into the reauthorization of No Child Left Behind. In fact, the 
renewal of the NCLB is a perfect opportunity to support high-
performing charter schools.
    We can promote reform at the state level through both 
funding and policy decisions. Under current law, chronically 
under-performing schools that face restructuring have the 
option of reopening as a charter school. I think this is an 
important option for local leaders.
    Unfortunately, that option was watered down by the majority 
under the NCLB discussion draft developed in 2007.
    Mr. Chairman, I think that would be a mistake. And given 
the obvious bipartisan support for charter schools that we are 
seeing here today, I hope we can revisit that issue when we 
reauthorize the Elementary and Secondary Education Act in the 
coming months.
    I yield back.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you, Chairman Miller, and good morning.
    I want to thank you for holding this important hearing and thank 
our witnesses for being here to shed light on a key opportunity to 
improve educational options for students and families. Republicans on 
this Committee have been strongly committed to the charter school 
movement for quite some time, and we're pleased to see that the cause 
is now bipartisan.
    Charter schools are essential to turning around our nation's ailing 
public schools system. They offer choices to parents and children, many 
of whom would otherwise be trapped in chronically underperforming 
public schools. And they have made great strides in raising achievement 
and tackling unique educational challenges from urban centers to rural 
outposts.
    But despite their many successes, charter schools are not growing 
as they should. They face overwhelming barriers to expansion, from 
arbitrary state caps to hostile state legislatures.
    Forty states and the District of Columbia have charter schools; of 
those, 26 states and the District have a cap, or limit, on charter 
school growth--be it the number of schools per state or the number of 
students per school.
    These caps are often the consequence of legislative trade-offs, 
representing political deal-making designed to appease special 
interests who prefer the status quo rather than reasoned education 
policy.
    As a result of these caps, children across the country now languish 
on daunting waitlists, just waiting to enroll in the public school of 
their choice simply because it happens to operate as a charter. An 
estimated 365,000 students are on charter school waitlists today. 
That's enough students to fully enroll 1,100 new, average-sized charter 
schools.
    As I'm sure our witnesses will tell us today, charter school 
advocates have always aspired to a rather humble goal--they simply want 
access to the same equal playing field as traditional public schools. 
To receive equal funding, equal facilities, and equal treatment so that 
this commitment to innovation has a real chance to succeed.
    And what makes these schools so innovative? While charter schools 
must adhere to the same guidelines and regulations as traditional 
public schools, they are freed from the red tape that often diverts a 
school's energy and resources away from educational excellence. Instead 
of constantly jumping through procedural hoops, charter school leaders 
can focus on setting and reaching high academic standards for their 
students.
    As we look to the future, our goal should not just be charter 
school expansion, but the expansion of charter school excellence. It is 
not enough to talk about the importance of charter schools; we have to 
take action. Paying lip-service to charters while failing to enact the 
right policies--or, worse, expanding charters while eliminating the 
features that make them work--would be unfair to these schools, the 
innovators behind them, and the students they serve.
    Fortunately, there are steps we can take to expand and replicate 
high-performing charter schools. Last Congress, Rep. Charles Boustany 
introduced the Charter School Program Enhancement Act--legislation that 
would have increased awareness of the best practices among successful 
charter schools and incentivized their growth by focusing funding on 
states without restrictive caps. It was our hope that this legislation 
would have made it into the reauthorization of No Child Left Behind.
    In fact, the renewal of NCLB is a perfect opportunity to support 
high-performing charter schools. We can promote reform at the state 
level through both funding and policy decisions.
    Under current law, chronically underperforming schools that face 
restructuring have the option of reopening as a charter school. I think 
this is an important option for local leaders. Unfortunately, that 
option was watered down by the majority under the NCLB discussion draft 
developed in 2007.
    Mr. Chairman, I think that would be a mistake--and given the 
obvious bipartisan support for charter schools that we're seeing here 
today, I hope we can revisit that issue when we reauthorize NCLB in the 
coming months.
    With that, I look forward to hearing from this excellent panel. 
Thank you, Chairman Miller. I yield back.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    I would like now to introduce our panel. Our first witness 
will be Jim Shelton, who is the Department of Education's 
assistant deputy secretary in charge of the Office of 
Innovation and Improvement.
    Prior to becoming assistant deputy secretary, Mr. Shelton 
was program director for education division of the Bill and 
Melinda Gates Foundation. He has also worked at NewSchools 
Venture Fund as their East Coast partner, and as head of the 
consulting division of Edison Schools.
    And I believe our colleague Jared is going to introduce the 
lieutenant governor.
    Mr. Polis. Thank you, Chairman Miller. And thank you so 
much for holding a hearing on such an important issue as 
charter schools, which I devoted a lot of my policy and 
philanthropic efforts towards.
    It is my honor to introduce and welcome to our committee 
our lieutenant governor of Colorado, Barbara O'Brien, who we 
know is a passionate voice for Colorado's children and a 
tireless advocate of education reform, with whom I have had the 
pleasure to work with closely for many years.
    Indeed, some might call Lieutenant Governor Barbara O'Brien 
the mother of charter schools in Colorado. Barbara O'Brien 
chairs Colorado's team for competing for the U.S. Department of 
Education Race to the Top funding.
    She also serves as co-chair of Colorado's P-20 Education 
Committee, appointed by Governor Bill Ritter, to recommend 
changes in Colorado's preschool through post-secondary 
education system to position it for the 21st century.
    Prior to becoming lieutenant governor, she served 16 years 
as president of Colorado Children's Campaign, a statewide 
public policy and advocacy nonprofit organization. In 1993, she 
led the successful effort to pass the Colorado Charter School 
Act signed by Governor Roy Romer.
    Before I was elected to serve in Congress, I founded and 
was the superintendent of New America School, a charter school 
that helped serve 16-to 21-year-old new immigrants, to help 
them learn English and earn a high school diploma. I also co-
founded the Academy of Urban Learning for homeless youth.
    After meeting and talking to the kids being left behind, I 
focused my efforts as an innovator on creating a new format of 
school to catch these kids before they headed down the wrong 
path. These efforts were enabled by Lieutenant Governor Barbara 
O'Brien's policy leadership.
    All children deserve to learn, and proven models exist 
today. That is why I will soon introduce the All Students 
Achieving Through Reform--ALL-STAR--Act, which will focus on 
replicating high quality public charter schools in areas that 
need them the most.
    I would like to thank Lieutenant Governor O'Brien for being 
here today, and I look forward to her testimony.
    [The statement of Mr. Polis follows:]

 Prepared Statement of Hon. Jared Polis, a Representative in Congress 
                       From the State of Colorado

    Thank you Chairman Miller and I applaud you holding a hearing on 
such an important issue as charter schools, to which I have devoted 
much of my policy and philanthropic efforts.
    Before I was elected to serve in Congress, I founded and was the 
Superintendent of the New America School, a charter school that helps 
16-21 year-old new immigrants learn English and earn a high school 
diploma. New America School now has four campuses in Colorado and will 
be opening one in New Mexico this coming fall. I also co-founded the 
Academy of Urban Learning for homeless youth.
    As Chairman of the Colorado State Board of Education, I had seen 
firsthand the many problems facing our nation's public education system 
that forced many kids into lives of poverty and crime. After meeting 
and talking to the kids being left behind by our school system, I 
focused my efforts as an innovator and entrepreneur to creating a new 
format of school to catch these kids before they headed down that path. 
The beauty of a public charter school lies in its great autonomy and 
self-determination--this is what drew me to charter schools in the 
first place; strong site leadership can customize the educational 
experience to meet the real-life learning needs and unique situations 
of students.
    I hope that this hearing helps to illuminate the great progress 
charters have made in closing the achievement gap--from schools that 
have found ways to dramatically improve the academic achievement of at-
risk students, to schools that ``should'' fail according to statistical 
assumptions but continue to exceed expectations and provide students 
with the tools they need to stay in school and succeed.
    That is why I will soon introduce the All Students Achieving 
through Reform (All-STAR) Act of 2009 that builds upon and expands 
educational opportunity and encourages innovation. All-STAR focuses on 
replicating high-quality public charter schools in areas that need them 
the most and is based on a simple premise: We must support and 
duplicate those public schools with a proven track record of results to 
educate additional children.
    It is my honor to introduce and welcome to the Committee Lt. Gov. 
Barbara O'Brien, a passionate voice for Colorado's children and a 
tireless advocate of education reform, with whom I have had the 
pleasure to work with closely over the years. Indeed, some might call 
Lt. Governor Barbara O'Brien the mother of charter schools in Colorado.
    Barbara O'Brien chairs Colorado's team for competing for the U.S. 
Department of Education Race to the Top funding for education reform. 
She also serves as co-chair of Colorado's P-20 Education Committee, 
appointed by Gov. Bill Ritter to recommend changes in Colorado's 
preschool through post-secondary education system in order to position 
it for the 21st Century. Since 2007, the committee has proposed 
numerous changes in state policy including creating a statewide 
educator identifier data system, revising all content standards, 
extending the student data system to include young children in 
publicly-funded early childhood education programs, and expanding full-
day kindergarten and preschool for at-risk children, among others.
    Prior to becoming lieutenant governor, she served 16 years as 
president of the Colorado's Children's Campaign, a statewide public 
policy and advocacy nonprofit organization. Her leadership led to major 
statewide policy initiatives such as the passage of a constitutional 
amendment to increase funding for schools, creation of the state's 
preschool program for low-income children, and legislation to allow 
school-based health clinics to receive funding through Medicaid and the 
Child Health Plan. In 1993, she led the successful effort to pass the 
Colorado Charter School Act.
    In addition, under her leadership the Colorado Children's Campaign 
participated in the Bill and Melinda Gates Small High School Project 
and helped create fourteen new, small high schools in Colorado, 
including the highly successful Denver School of Science and 
Technology.
    She has also served as the Executive Director of the Institute for 
International Business at the University of Colorado Denver, Director 
of Campus Affairs at the University of Colorado Denver and was former 
Colorado Governor Dick Lamm's Senior Advisor for Education. Lt. Gov. 
O'Brien holds a Ph.D. in English from Columbia University in New York.
    I would like to thank Lt. Gov. O'Brien for being here today and I 
look forward to her testimony.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Steve Barr founded Green Dot Public Schools in 1999 
with a vision of transforming secondary education in California 
by creating a number of high-performing publicly funded charter 
schools.
    In addition to leading Green Dot, Mr. Barr is a state board 
of education appointee to the Advisory Commission on Charter 
Schools where he provides policy recommendations to the state 
board of education on charter school-related issues.
    Dr. John King is the managing director of Excellence and 
Preparatory Networks of Uncommon Schools, a nonprofit charter 
management organization.
    Dr. King is a co-founder and former co-director of 
curriculum and instruction of Roxbury Preparatory charter 
school, a nationally recognized urban college preparatory 
public school that closed the racial achievement gap in 
Massachusetts and was recognized by the U.S. Department of 
Education as one of the eight top charter schools in the 
country.
    Mr. James Goenner is going to be acknowledged by Mr. Kildee 
and introduced by Mr. Ehlers. Mr. Ehlers--is he here?
    Mr. Kildee. We will share the honor. I will just----
    Chairman Miller. Yep, there you are.
    Mr. Kildee [continuing]. Say that I am very happy to have 
Mr. Goenner here today from Central Michigan University.
    Most of the good things of charter schools in Michigan owe 
a great deal to you. And I really appreciate all you have done, 
but I will defer to Dr. Ehlers for the formal introduction. 
Thank you very much.
    Mr. Ehlers. Thank you, Mr. Chairman. It is a pleasure to do 
that today. Michigan has long been a leader in the charter 
school movement from many different aspects.
    But one of the major leaders has been Mr. James Goenner, 
working for the Center for Charter Schools at Central Michigan 
University, better known as CMU. It is the nation's largest 
university authorizer of charter public schools.
    Jim has served as executive director since February 1998 
and formerly served as the founding president of the Michigan 
Association of Public School Academies.
    Jim has been instrumental in establishing the Michigan 
Council of Charter School Authorizers, which he chairs, and is 
a founding board member and chair of the National Association 
of Charter School Authorizers.
    Under Jim's leadership, CMU has pioneered new initiatives 
for overseeing and supporting charter schools, leading Central 
Michigan University to be recognized as the gold standard of 
charter school authorizing.
    CMU currently authorizes 58 of Michigan's 230 charter 
public schools and serves approximately 30,000 students. As a 
group, students in schools chartered by CMU outperformed their 
host district counterparts in all six core academic subjects of 
Michigan state assessment.
    Ten schools chartered by CMU have attained the NCLB goal of 
100 percent proficiency by 2014 in certain subjects. And in 
2008, for the first time, Michigan's top performing district on 
the state assessment is a school chartered by CMU.
    Thank you in advance for being here, Mr. Goenner, and 
welcome you. We look forward to your expert testimony.
    Chairman Miller. Thank you.
    Welcome to the committee.
    David Dunn is the executive director of the Texas Charter 
Schools Association. Most recently, Mr. Dunn was chief of staff 
to former U.S. Secretary of Education Margaret Spellings.
    Mr. Dunn's experience also includes service as special 
assistant to the president for domestic policy in the last Bush 
administration, the associate executive director and chief 
lobbyist for the Texas Association of School Boards, and 15 
years in education fiscal policy analysis for the state of 
Texas.
    Welcome to all of you to the committee.
    Mr. Shelton, we are going to begin with you. When you begin 
to testify, a green light will go on in front of you. We are 
going to allow you 5 minutes to give us all your wisdom and 
expertise in the history of charter schools.
    And with 1 minute remaining, an orange light will go on. We 
would like you to think about wrapping up your testimony. And 
then a red light will go on, and you finish in a way that you 
consider appropriate, to make sure you have conveyed your--your 
thoughts to us.
    But we obviously want to have time for questions, and we 
are going to be pressed a little bit today because of the floor 
schedule.
    Welcome to the committee.

STATEMENT OF JIM SHELTON, ASSISTANT DEPUTY SECRETARY, OFFICE OF 
    INNOVATION AND IMPROVEMENT, U.S. DEPARTMENT OF EDUCATION

    Mr. Shelton. Thank you, Chairman Miller. Good morning.
    And good morning to you also, Ranking Member McKeon and 
other distinguished members of the committee.
    Thank you for the opportunity to appear before you today to 
discuss the topic of ``Building on What Works at Charter 
Schools.'' As you know, improving our education system is the--
one of the administration's top priorities.
    Our goal is to improve education at every level for each 
student. We believe that this must include improving the 
quality of traditional public schools and public charter 
schools, which I will discuss today.
    I am pleased to provide an overview of the Department of 
Education policies on charter schools and to highlight 
successful charter programs across the nation.
    Expanding high-quality charter schools is a central 
component of this administration's strategy to improve public 
education, both as a strategy for intervening in struggling 
schools and as a platform for driving innovation ultimately.
    Charter schools continue to expand across the nation, 
bringing innovation and change to communities and helping to 
eliminate the achievement gap. They have inspired a new kind of 
entrepreneurial leadership to address some of our nation's most 
perplexing and historically impenetrable education problems.
    Their flexible and results-based operations have 
demonstrated success in some of our most challenging and 
compromised school districts.
    The best charter schools have proven, as you said, that 
regardless of race, native language, or socioeconomic status, 
children can achieve the highest levels of academic success.
    As you noted also, over 4,600 schools today that serve 1.4 
million students--60 percent of these students are minority. 
Fifty percent of these students fall into the category of 
qualifying for free and reduced lunch.
    In some cases, these schools are offering the only high-
quality option available to the low-income students in their 
communities. They serve 3 percent of all public school students 
nationally, with some schools--with some communities having 
over 20 percent of their students being served by public 
charter schools.
    These communities have taught us under what conditions, 
circumstances, charters can flourish, but they have also taught 
us that having the authority to enforce accountability often is 
not the same as having the courage to use it.
    Thus, charter school achievement in aggregate continues to 
be mixed, and we are starting to get--and because of this, we 
are starting to get results of the research, sufficiently 
rigorous, to answer the most important questions about charter 
performance and the drivers of it.
    For example, a recent Rand study of both Florida and 
Chicago showed that the high schools there are not only 
outperforming the traditional public schools and the district 
schools around them in graduation rates but also enrollment in 
college.
    A 2009 study on charter schools in Boston has actually 
shown that the charter schools in Boston are outperforming 
traditional public schools around them. This study is 
particularly important because it actually debunks the myth 
that creaming was the reason for this outperformance. It 
actually has the kind of controls that we actually need to show 
that, in fact, it is the school that made the difference.
    It is important to note that we are no longer talking about 
just ``one-of'' schools anymore. There are high quality charter 
networks around the country that are hitting these outstanding 
high achievement goals for students, many of them represented 
here on this panel today. But there are many in other parts of 
the country as well as----
    These networks of charter schools are succeeding in closing 
the achievement gap. They are preparing low-income students not 
only to attend college but to graduate from college. And they 
are doing it at scale.
    Yet even with these clear examples of the possibilities, we 
continue to fail our students by not taking action and closing 
the worst-performing schools. States and charter authorizers 
must take up their role in accountability.
    At the same time, though, this administration and our 
secretary are asking states to--they are calling upon states to 
remove the arbitrary caps and unfair funding and facilities 
practices that have limited the replication and expansion of 
our nation's highest-performing charter schools and charter 
school networks.
    This is even more important as we collectively begin our 
Race to the Top. There is a growing entrepreneurial spirit that 
is leading the charge and meeting the challenge to making 
lasting changes in the classroom, and we want to enable that 
transformation.
    Therefore, for 2010, the administration is requesting $268 
million for the Charter Schools Program, an increase of $52 
million over the 2009 level.
    The request would provide increased support for planning 
and startup of new high-quality charter schools and address 
some of the barriers around facilities as well.
    This will be the administration's first major step toward 
fulfilling its commitment to double support for charter schools 
over the next 4 years.
    At the 2010 request level, the department will continue to 
provide grants to state education agencies.
    And in order to supplement the efforts of states and local 
developers in creating charter schools, we are requesting 
appropriations language that would allow the secretary to make 
direct grants to charter management organizations and other 
entities for the replication of successful charter school 
models.
    This policy would give us some needed additional authority 
to direct funds to organizations that are best equipped to 
bring about the expansion of the most effective schools.
    The administration's fiscal year 2010 budget request would 
also continue support for evaluation, technical assistance, and 
dissemination of model charter programs and charter school 
laws.
    In closing, once again let me thank the committee for 
inviting me to appear today. I look forward to continuing to 
work with the committee on this and other important issues.
    [The statement of Mr. Shelton follows:]

Prepared Statement of James H. Shelton, III, Assistant Deputy Secretary 
      for Innovation and Improvement, U.S. Department of Education

    Good morning Chairman Miller, Ranking Member McKeon and 
distinguished members of the Committee. Thank you for the opportunity 
to appear before you today to discuss the topic of Building on What 
Works at Charter Schools. Improving our education system is one of this 
Administration's highest priorities. Our goal is to improve education 
at every level for all students. This must include improving the 
quality of traditional public schools and public charter schools, which 
I will discuss today. I am pleased to provide an overview of the 
Department of Education's policies on charter schools and to highlight 
successful charter programs across the nation.
Charter Schools: An Overview
    Improving our education system by expanding high-quality public 
charter schools is one of this Administration's highest priorities. 
Charter schools continue to expand across the nation, bringing 
innovation and change to countless communities and helping to eliminate 
the achievement gap. Charter schools have inspired a new kind of 
entrepreneurial leadership to address some of our nation's most 
perplexing and historical educational failures. Their innovative, 
flexible, and results-based operations have demonstrated success in 
some of our most challenging and compromised school districts. The best 
charter schools have proven that regardless of race, native language, 
or socioeconomic status, children can achieve academic success when 
given a quality education.
    Forty states, the District of Columbia, and Guam have enacted 
charter school laws, enabling the creation of over 4600 schools today 
that serve over 1.4 million students.\i\ Over 60 percent of these 
students are minority and over 50 percent are eligible for free and 
reduced lunch. These schools are serving 3 percent of public school 
students nationally, with charter schools in New Orleans, Washington 
DC, Southfield MI, Dayton OH, and Kansas City MO serving over 20 
percent of the public school students in their communities.\ii\
    Baseline data, collected through the Department's EDFacts system, 
show that during the 2006-07 school years approximately 63 percent of 
fourth-grade charter school students were achieving at or above 
proficient on State assessments in reading/language arts and 62 percent 
at or above proficient on State assessments in mathematics. The 
percentage of eighth-grade students proficient in either subject was 
lower, with approximately 61 percent achieving at or above proficient 
on State assessments in reading/language arts and only 50 percent at or 
above proficient on State assessments in mathematics.\iii\
Charter Schools: Success and Barriers
    Charter school achievement continues to be mixed but improving. 
Studies suggest that charter schools with more experience provide added 
value when compared to some traditional public schools and that charter 
schools serving at-risk students can be effective in improving academic 
achievement. Studies incorporating longitudinal student-level data and 
rigorous research methodology are increasing, and contributing to our 
understanding of the impact charter schools are making on student 
performance. Examples of significant results in key chartering states 
and cities are that:
    <bullet> According to a recent evaluation conducted by the RAND 
Corporation, charter high schools in Florida and in Chicago have shown 
substantial positive effects on both high school completion and college 
attendance. Their students have higher graduation rates and their 
graduates have higher rates of college attendance as compared to their 
peers in traditional public schools.\iv\
    <bullet> Similarly, a 2009 study by the Boston Foundation showed 
that when compared to students enrolled in traditional schools, charter 
school students in Boston are making significant gains.\v\
    <bullet> 2009 data collected through the Department's EDFacts 
system reports proficiency rates on State assessments for students 
enrolled in charter schools in Idaho, Colorado and Tennessee that were 
higher than those for students in traditional schools in their 
respective states in reading and mathematics.\vi\
    Charter school networks that are making significant gains in some 
of our nation's most educationally disadvantaged neighborhoods include 
Uncommon Schools (NJ and NY), Achievement First (CT and NY) and Harlem 
Village Academies (NY). These networks of charter schools are 
succeeding in narrowing the achievement gap and preparing low-income 
students not only to attend college, but to graduate from college. 
These charter networks, based on strong models of educational success 
and increased capacity for planning and implementing successful charter 
schools, are developing and managing systems of geographically linked 
schools that are held to high standards.
    However, we have continued to fail our students by not taking 
action and closing the worst-performing schools. While it's estimated 
by the Center for Education Reform that nearly 14 percent of the 657 
charter schools that have closed since the 1992 were closed because of 
poor academics, over 41 percent closed due to the lack of equitable 
financing.\vii\ States and charter authorizers must take seriously 
their roles in approving, funding, rigorously reviewing, assessing, and 
revoking the charters of those schools that cannot demonstrate academic 
growth.
Charter Schools: A Critical Strategy
    We believe charter schools will play two essential roles in the 
development and implementation of education reforms that address the 
widest points of the achievement gap: transforming persistently failing 
schools and leading our nation's thinking on education innovation and 
what works. Charter schools will be a critical strategy for 
transforming persistently failing schools. Examples such as Green Dot, 
KIPP and Mastery Charter Schools are nationally recognized and growing 
networks of college preparatory elementary, middle and high schools 
that are not only improving student academics and graduation rates from 
high school, but also increasing college enrollment.
    A growing entrepreneurial spirit is leading the charge and meeting 
the challenge to make a lasting change in the classroom. States are 
being called upon to reduce the barriers to innovation that further 
inhibit a student from receiving a high-quality education. States must 
remove arbitrary caps that have limited the replication and expansion 
of some of our nation's highest-performing charter schools and charter 
school networks. They must also ensure accountability and make tough 
decisions to close charter schools that are not working.
Charter Schools: This Administration's Commitment
    For 2010, the Administration requests $268.031 million for the 
Charter Schools Program, an increase of $52 million, over the 2009 
level. The request would provide increased support for planning and 
start-up of new high-quality charter schools, a key element of the 
Administration's strategy to promote successful models of school 
reform. This sizeable increase is the Administration's first major step 
toward fulfilling its commitment to double support for charter schools 
over the next 4 years.
    With support from the program, the number of charter schools 
nationally has increased dramatically from approximately 100 in 
operation in 1994 to over 4,600 today. Since 2001 over 2,400 charter 
schools have received assistance under this program.\viii\ Funding for 
this program provides new schools with necessary, but often difficult 
to acquire, start-up funds and assists in making the most successful 
models for charter schools available for replication throughout the 
country.
    At the 2010 request level, the Department would continue to provide 
grants to State Educational Agencies to support planning, development, 
and initial implementation activities for approximately 1,200 to 1,400 
charter schools, as well as fund dissemination activities by schools 
with a demonstrated history of success. Further, in order to supplement 
the efforts of States and local developers in creating charter schools, 
we are requesting appropriations language that would allow the 
Secretary to make competitive grants to charter management 
organizations and other entities for the replication of successful 
charter school models. This policy would give us some needed additional 
authority to direct funds to organizations that are the best equipped 
to bring about the expansion of the most effective models.
    The Department would also use the available waiver authority to 
strengthen the capacity of the program to support the growth of charter 
schools in a variety of situations and contexts. For example, current 
law limits a charter school to a single planning and implementation 
grant and a single dissemination grant. This limitation is generally 
appropriate, as Federal funding should not typically pay for multiple 
planning periods or provide long-term support of a charter school. 
However, this limitation can inhibit the growth of charter schools that 
need external assistance in order to expand (for example, a charter 
middle school that wants to extend to the high school grades).
    Similarly, current law limits assistance to a charter school to not 
more than 18 months for planning and program design and not more than 2 
years for implementation or dissemination. This prescribed planning 
period can, for some grantees, limit their ability to develop well-
articulated, comprehensive program designs that help guide the 
successful implementation of a new school. The Department would address 
this limitation by waiving, in appropriate circumstances, the 18-month 
planning limitation and allowing grantees additional time within the 
36-month grant period for planning and implementation.
    The Administration's FY 2010 budget request would continue support 
for evaluation, technical assistance, and dissemination of model 
charter programs and charter school laws.
    In closing, let me once again thank the Committee for inviting me 
to appear today. I look forward to continuing to work with the 
Committee on these and other important issues.

                                ENDNOTES

    \i\ 2009 National Charter School Data, Center for Education Reform, 
Washington, DC
    \ii\ 2008 Dashboard, National Alliance for Public Charter Schools, 
Washington, DC
    \iii\ Flaherty, John, Nakamoto, Jonathan, Salaam, Khadijah. (2008). 
Report on the Charter Schools Program (CSP) Data Collection Project: An 
Analysis of the CSP Grantee Award and Performance Data. WestED, 
Contract No. ED-04-CO-0060/0001 Task Order 3.
    \iv\ Booker, Kevin, Tim R. Sass, Brian Gill, & Ron Zimmer. (2008). 
Going beyond test scores: Evaluating charter school impact on 
educational attainment in Chicago and Florida (WR-610-BMG). Santa 
Monica, CA: RAND.
    \v\ Abdulkadiroglu, Atila, Josh Angrist, Sarah Cohodes, Susan 
Dynarski, Jon Fullerton, Thomas Kane, and Parag Pathak. (2009). 
Informing the debate: Comparing Boston's charter, pilot and traditional 
schools. Boston, MA: The Boston Foundation
    \vi\ U.S. Department of Education EDFacts and 2007-08 CSP Data 
Collection Template
    \vii\ Allen, Jeanne, Consoletti, Allison, Kerwin, Kara. (2009). 
2009 Accountability Report: Charter Schools. The Center for Education 
Reform, Washington, DC
    \viii\ U.S. Department of Education EDFacts and 2007-08 CSP Data 
Collection Template
                                 ______
                                 
    Chairman Miller. Ms. O'Brien?

  STATEMENT OF BARBARA O'BRIEN, LIEUTENANT GOVERNOR, STATE OF 
                            COLORADO

    Ms. O'Brien. Thank you, Chairman Miller. Thank you, 
Chairman Miller, committee members and Congressman Polis for 
this opportunity and, Congressman Polis, especially for your 
leadership on education reform.
    I was the president of the Colorado Children's Campaign, a 
statewide child advocacy organization, from 1990 to 2006. Our 
mission was to advocate for all Colorado kids, but particularly 
for children most at risk.
    In the early 1990s there was little hard data on vulnerable 
children in the public school system, but all you had to do was 
walk into a fourth grade class in a poor neighborhood to see 
the faces of kids who had already mentally checked out.
    In 1991 I began searching for ways to change the trajectory 
to success for vulnerable students. Charter schools offered a 
way to stimulate innovation within public education by giving 
educators greater autonomy in exchange for greater 
accountability.
    After 2 years of research and coalition building, we 
succeeded in making Colorado the third state to enact such a 
law. This was still unchartered territory, but inaction was no 
longer an option in the face of failure.
    Reformers began to use the autonomy of charter schools to 
schedule more time in school, form different educational 
missions from college prep to vocational education, use 
different instructional methods, and encourage increased 
engagement with parents.
    In Colorado 97 percent of charters use models that are 
different from traditional schools, including Montessori, 
experiential learning and technology-based curricula.
    Charter schools create opportunities and open doors for 
kids who would otherwise be left behind. They do it by using 
the best of the American spirit--entrepreneurship, innovation, 
and hard work. They are an asset, not a threat, to our public 
education system.
    Some districts initially viewed their own public charter 
schools as competition, but most districts now celebrate the 
educational diversity they bring.
    Charter schools are incubators of innovation that can be 
replicated and diffused throughout our public school system. I 
view charter schools as education laboratories--taking risks, 
trying new things, developing alternatives and pushing the 
reform envelope.
    Districts are learning every day from successful models and 
can deploy them in other schools.
    Since 1993 our state's charter schools have experienced 
both success and failure, just like any new venture, but their 
entrepreneurial risk-taking has clearly led to great rewards 
system-wide.
    In Colorado, 78 percent of charters made adequate yearly 
progress last year, compared to 58 percent of traditional 
public schools, and 55 percent of charters were rated excellent 
or higher, compared to 43 percent of traditional public 
schools.
    Charter schools now serve 7 percent of students, more than 
double the national average. And I would like to highlight one 
example. West Denver Preparatory Charter School has 90 percent 
of its students eligible for the free and reduced-price lunch, 
FRL.
    On the new Colorado Growth Model, its students scored the 
highest average growth percentile of any school in Denver 
Public Schools. To prepare for college, students attend longer 
school days, receive extended class time, complete homework 
assignments daily, have access to tutoring and are held to high 
standards, all on a public school budget.
    So what makes these schools effective in educating at-risk 
students when others have failed? Here are a couple of 
characteristics that I have identified. They welcome 
accountability. They found ways to have more hours per school 
day and more days per school year. They welcome data.
    They foster a culture of achievement. They have 
demonstrated the importance of the leadership of a good 
principal. They welcome high performance standards. And they 
attract principals and teachers who want the challenge of 
overcoming great odds.
    It is important to recognize that not all charter schools 
work out, and I do think federal policy creating incentives for 
closing failing charter schools and disincentives for keeping 
charter--charter schools going when they are not performing 
would be important and in keeping with the mission.
    There is a caveat. Charter schools are the research and 
development arm of education. While our focus should be on 
replicating successful models, we should always leave room for 
further innovation. We owe it to students to give them the best 
we have.
    Thank you very much, and I appreciate this opportunity.
    [The statement of Ms. O'Brien follows:]

    Prepared Statement of Hon. Barbara O'Brien, Lieutenant Governor,
                           State of Colorado

    Thank you Chairman Miller, Committee members and Congressman Polis 
for this opportunity to talk about charter schools.
    I was the president of the Colorado Children's Campaign, a 
statewide child advocacy organization, from 1990 to 2006 when I ran for 
Lt. Governor. Our mission was to advocate for better health, safety and 
education for all Colorado kids, but particularly for children most at 
risk. In the early 1990s there was little hard data on vulnerable 
children in the public school system, but all you had to do was walk 
into a fourth grade class in a poor neighborhood and see the faces of 
the kids who had already mentally checked out to know that those eager 
young faces had stopped learning in school and that a lot of teens 
would be dropping out.
    In 1991, I began searching for ways to change the trajectory to 
success for vulnerable students. Charter schools offered a way to 
stimulate innovation within public education by giving educators 
greater autonomy in exchange for greater accountability. After two 
years of research and coalition building, the Children's Campaign 
successfully passed the Colorado Charter School Act of 1993.
    No Child Left Behind legislation in 2002 led to data showing that 
many low income, minority and rural students were indeed being left far 
behind. The traditional school, however, rarely closed the achievement 
gap. Reformers began to use the autonomy of charter schools to schedule 
more time in school, form different educational missions from college 
prep to vocational education, use different instructional methods, and 
encourage different engagement with parents. In Colorado, for example, 
ninety-seven percent of charters use models that are different from 
traditional schools.
    Charter schools create opportunities and open doors for kids who 
would otherwise be left behind. They do it by using the best of the 
American spirit--entrepreneurship, innovation, and hard work.
    Today, approximately 4,700 charter schools are educating almost one 
and a half million children in 40 states and the District of Columbia, 
engaging families and closing the achievement gap. In Colorado, 78% of 
charters made adequate yearly progress last year, compared to 58% of 
traditional public schools, and 55% of charters were rated excellent or 
high compared to 43% of traditional public schools. Charter schools 
have come a long way since 1993.
    Here are a few things to know about successful charter schools:
    <bullet> They welcome accountability.
    <bullet> They have found ways to have more hours per school day and 
more days per school year--with the support of their teachers and 
parents--so that their students can catch up.
    <bullet> They have demonstrated the importance of the leadership of 
a good principal.
    <bullet> They welcome high performance standards.
    <bullet> They support the closure of failing charters.
    <bullet> Their experience tells them that it is easier to create 
excellence in an autonomous charter school than to turn around a 
failing traditional school.
    While I've been addressing the issue of charters and at risk 
students, policy makers should also consider the role of charters in 
boosting the achievement of suburban students. We should not be 
complacent about our best schools as other developed countries 
accelerate the academic achievements of their students.
    Congress needs to lead the country in putting a laser focus on 
student achievement. With that focus, charters can be an asset, not a 
threat. They attract principals and teachers who want the challenge of 
overcoming great odds to boost their students' achievement. They 
innovate broadly and deeply, from curriculum to assessment to schedule. 
Today there are many models of successful charters--from the national 
KIPP network to the unique West Denver Prep--and it is time for federal 
education policy to include incentives for replicating successful 
charters and disincentives for allowing unsuccessful charters to 
continue.
    One caveat * * *
    Charter schools are the research and development arm of education. 
While our focus should be on replicating successful models, we should 
always leave room for innovation.
    We owe it to students to give them the best we have.
    Thank you.
                                 ______
                                 
    Chairman Miller. Steve, welcome to the committee.

  STATEMENT OF STEVE BARR, FOUNDER AND CHAIRMAN OF THE BOARD, 
                    GREEN DOT PUBLIC SCHOOLS

    Mr. Barr. Honor to be here on behalf of the teachers and 
families we serve and those who support them. It is a great 
honor to come here and tell our story.
    I started Green Dot Public Schools in the summer of 1999 
mainly because, as some of the distinguished members from 
California can attest to, we used to have the best public 
schools in the world in California, and I was able to jump a 
class because of that lift.
    And I am the class of 1977. After I graduated from high 
school, we had a tax revolt. In my adult lifetime, our schools 
went from the best to the worst in my adult lifetime.
    And what passed as debate was the left, which I am a member 
of, saying, ``We just need more money for a failed centralized 
system,'' and the right saying, ``Scrap it,'' ``Privatize it,'' 
or, ``It is the teachers' union's fault.'' And there is got to 
be more to this debate and discussion than that, as we tackle 
this problem.
    Green Dot Public Schools currently operates 18 small 
preparatory high schools in the highest need areas of Los 
Angeles, highest need meaning the most overcrowded and the 
biggest dropout rates; one school in the South Bronx; and a 
partnership with the United Federation of Teachers.
    We go into areas where there is 60 to 70 percent dropout 
rates and we retain and graduate, with the same kids and the 
same money, over 80 percent of the kids, and 80 percent of 
those graduates go on to 4-year colleges.
    The scale of that is important because in those same 
neighborhoods, maybe 4 percent of the kids in those 
neighborhoods will get a college degree.
    And the most important part of the story is not charter. It 
is the vision of what those schools look like. Like KIPP and 
Uncommon Schools and the rest of the providers out there that 
are providing great R&D, our schools are small. We have high 
expectations for all the kids. The dollars get in the 
classroom. And we are accountable to the parents. I think that 
is a vision of public education that should be adopted across 
the board.
    In addition to serving our families, our most important 
role, as the lieutenant governor mentioned, is to create R&D of 
what a school district can look like. And you can't do that 
just with a single charter school.
    I think our back office efficiency of getting 94 cents of 
the taxpayers' dollar in the classroom is important, and also 
recognizing the fact that this is a 100 percent unionized 
industry. We have a collective bargaining agreement that is 
partnered with not only the California Teachers Association and 
the NEA, but as of 2 weeks from now when we ratify an AFT-UFT 
contract, a teachers' union contract that shares the same 
vision.
    Our teachers' union contract has replaced tenure with just 
cause. We don't count minutes and hours in a workday. We have a 
professional workday. We agree to pay the teachers 15 to 20 
percent more through our efficiency. And--accountability. So 
seniority is not always the rule of how we lay off and dismiss 
people.
    Now, if the teachers' unions can come this far, and the 
reformers can come and meet them in the middle, that should 
unlock this idea that these tribes can't come together to solve 
this problem, which is essential if we are going to really 
attack this problem.
    It is not just enough to create a charter school in a 
neighborhood, though. Two years ago we took one of the worst 
dropout factories in Los Angeles, Locke High School, a school 
that opened after the Watts riots in 1965, which was supposed 
to bring hope to that neighborhood. What ended up happening is 
that high school became the place where if you got in trouble 
you got sent to, not only for students but also for teachers.
    Locke High School would have 1,200 freshmen every year, and 
by the end of the senior year they would dwindle down to 250 to 
300 kids. Devastation--every year a repeat of that cycle and 
what that does to that neighborhood.
    If you could imagine--and the reason why this is important 
and I think is the next part of our journey in charter schools 
and how we become relevant in big city urban districts--is we 
have got to take on these turnaround failing schools, and I 
think Locke has become a model, because if you can imagine--if 
you just took the basic stats that are available to the average 
person, and you said--you looked at the numbers, 60,000 people 
have gone to Locke High School since it opened, give or take 
1,000.
    If you got them all together in one stadium, all the people 
who went to Locke High School, and you got on the P.A. system 
and said, ``Please step out of the stadium if you didn't 
graduate from Locke High School,'' 40,000 people would have to 
leave that stadium. So now you have got 20,000 people.
    And if you can imagine a P.A. announcement, ``Now, step out 
of that circle if you didn't go to a 4-year college,'' all but 
8,000 people would have to be out of that stadium. So you have 
got 8,000 people where there once were 60 that got into a 4-
year college.
    And why is that important? They will make a million dollars 
more over their lifetime. They may have the minimum 
requirements to go into teaching.
    And if you made the announcement to those 8,000 people, 
``Step out of the stadium if you didn't graduate and get your 
degree, a B.A.,'' All but 2,100 people would have to leave that 
stadium. Now you have got just one section of that stadium.
    And if you made the announcement to those folks, ``Please 
come--please tell me if you came back to this neighborhood to 
start a charter school, or get involved in politics or become a 
teacher,'' well, none of them came back to that neighborhood.
    And the reason why this is important--there is 30 or 40 
Locke High Schools in Los Angeles. There are thousands of Locke 
High Schools in this country. Until we fix that issue and that 
problem, our economy, our way of living and our urban core will 
never be the same.
    [The statement of Mr. Barr follows:]

        Prepared Statement of Steve Barr, Founder and Chairman,
                        Green Dot Public Schools

    Green Dot Public Schools, which I founded in 1999, currently has 18 
small preparatory high schools--17 serving the highest need areas in 
Los Angeles and 1 in the South Bronx. Currently we serve about 7500 
students. We go into areas where there are 60 to 70 percent dropout 
rates and we retain and graduate over 80 percent of those same kids 
with the same dollars. And nearly 80 percent of our graduates are 
accepted right out of our schools to four year universities. And those 
are areas, I might add, where maybe 4% of the kids graduate from 
college.
    Our role as a charter school organization is twofold--we serve our 
students and their families with everything we have. And secondly, we 
should be looked at as research and development. And the result of the 
R&D of Green Dot is clear-cut across the board--and that's that African 
American kids and Latino kids can learn when they're in a system of 
schools that are small, are college and work ready, where the dollars 
get in the classroom, where there's support for our product (which is 
teaching), we're accountable to parents and we ask parents to be 
involved. In that vision, we think it not only serves our ultimate 
stakeholders--which are the students--but also teachers. Green Dot has 
its own teachers union. We're affiliated with the California Teachers 
Association and the NEA. We're also in a unique partnership in New York 
with the UFT and AFT and Randi Weingarten.
    Our union contract instead of tenure has ``just-cause'' so there 
are protections. We have no minutes and hours in a workday, but a 
professional workday. And there's ultimate accountability; job 
stability is not just based on seniority but also on performance. We 
ask teachers to be more involved in decision-making and we pay more.
    Our Green Dot/UFT School in New York has total alignment between 
the mayor, the chancellor, and the president of the teachers union. We 
receive $12,000 per pupil and a free facility from the school district. 
With this kind of political alignment, the success of that school 
should be guaranteed.
    The ultimate mission of Green Dot is systemic change. Two years 
ago, we fulfilled the restructuring requirement of the No Child Left 
Behind by getting the majority of the tenured teachers at Alain Locke 
High School in Watts to agree to a charter transformation. Locke 
represents seven of our 18 schools in Los Angeles.
    Locke High School was founded 40 years ago following the Watts 
Riots full of hope and promise. If you look at the statistics, roughly 
60,000 people have attended that high school during this time. Imagine 
if you could get all those people together. It would fill a pretty 
nice-sized stadium. If you got on the public address system and you say 
to those 60,000 people, ``please leave the stadium if you didn't 
graduate from Locke High School,'' about 40,000 people would have to 
leave the stadium. Now you have 20,000 people left. Now if you got on 
the P.A. system and said to those people, ``now leave the stadium if 
you didn't get into a 4 year university.'' Why is that important? 
Because we know that those people will make over a million dollars more 
in a life-time and will have the minimal requirements to maybe even 
come back and teach at that school. So, from 20,000 we'd now be down to 
only 8,000 left in the stadium where there once stood 60,000. If you 
said to them, ``now step out of the stadium if you didn't complete your 
bachelor's degree,'' all but 2100 people would have to leave. Now you 
only have 2100, maybe 2200 where there once stood 60,000 people. If you 
said, ``Now please step out if you didn't come back to your 
neighborhood and become a teacher, become politically active, start a 
business or a charter school,'' Just a small handful of people would be 
left in the stadium. Taking into account the amazing work done by the 
clergy, gang intervention programs and non-profits, nothing will fix 
that neighborhood until you fix that school.
    The problem with Los Angeles is that there are a lot of Locke High 
Schools and the problem with this country is that there are thousands 
of Locke High Schools. Until we collectively make this right, we will 
never heal our cities and right our economy.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. King?

     STATEMENT OF JOHN KING, MANAGING DIRECTOR, EXCELLENCE 
             PREPARATORY NETWORK, UNCOMMON SCHOOLS

    Dr. King. Thank you, Chairman Miller and members of the 
committee, for the opportunity to testify today.
    I am here today to talk about my experiences as an educator 
and to ask the committee to support initiatives to increase the 
number of high performing charter schools serving low-income 
students.
    I am convinced that the autonomy of charter schools with 
respect to budget, staffing, curriculum and instruction, and 
school culture in combination with greater accountability for 
performance can create the context for both innovation and 
excellence.
    I grew up in Brooklyn, New York, the son of two New York 
City public school educators. My father, who grew up in Bed-
Stuy, Brooklyn, in a family that was just a couple generations 
removed from slavery, served as a teacher, principal, and 
eventually deputy chancellor of schools in New York City.
    My mother came to the Bronx as a small child and became a 
teacher and guidance counselor in New York City schools. They 
provided for me an extraordinary example of public service. 
However, I didn't get to know them well because both of them 
passed away while I was in elementary and middle school.
    And during those years, during an incredibly difficult 
period of my life, it was fantastic teachers in New York City 
public schools who made a huge difference for me.
    Those teachers at P.S. 276 and Mark Twain Junior High 
School led me to believe in the power of public education to 
transform lives and ultimately were the reason that I became a 
teacher and a principal.
    In 1999, I co-founded the Roxbury Preparatory charter 
school in Boston, the highest performing urban middle school in 
Massachusetts for 5 years running and a school that has closed 
the racial achievement gap on state exams.
    Roxbury Prep's student body is selected by random lottery. 
They look just like the students of the Boston public schools. 
Despite that fact, our students are dramatically outperforming 
not only other schools in Boston but students from the most 
affluent suburbs of Massachusetts.
    And the value-added data that we have for Roxbury Prep 
shows that our results are not from creaming. It is from good 
education. Our students come to us behind grade level and they 
leave us outperforming their peers around the state.
    And we keep careful track of our alums after they leave us 
in eighth grade. A hundred percent of them go on to college 
prep high schools, and we know that 80 percent of them are 
still on track to graduate from college on time, in comparison 
with the less than 10 percent of adults in their communities 
who graduate from college.
    How are we getting these results? Using our autonomy to 
have a clear and compelling mission to prepare our students to 
enter, succeed in and graduate from college, having a small 
school community in which every adult knows every student, 
attracting and retaining outstanding teachers selected from 
among more than 80-100 candidates per opening, setting high 
standards for academics and character, extending our school day 
so that we can have double the amount of math and literacy as 
other schools, as well as enrichment for all of our students, 
and making substantial investments in teacher professional 
development.
    However, autonomy alone does not guarantee success. Every 
trustee, administrator and teacher at Roxbury Prep understands 
that if we don't fulfill our mission to graduate our students 
from college that we will be closed. And ensuring that schools 
use their autonomy effectively requires a strong accountability 
system that ties schools' continued existence to results.
    Since leaving Roxbury Prep, I have become part of an 
organization called Uncommon Schools which is seeking to 
replicate Roxbury Prep's success at scale in New York City, 
Newark, New Jersey and upstate New York.
    Each of our schools is modeled on the best practices of a 
highly successful charter school founded more than 10 years 
ago, Boston Collegiate Charter School, North Star Academy 
Charter School in Newark, and Roxbury Prep.
    Our students, again, look the same as the students in the 
districts where they are located, and yet our students are 
dramatically outperforming those districts. In 2007, one of our 
middle schools, Williamsburg Collegiate Charter School, was the 
number one ranked public middle school in New York City.
    In 2008, Excellence Boys Charter School, an all-boys 
elementary school, was the number one ranked public elementary 
school on the chancellor's progress reports.
    And just recently, in the 2009 state exam data, our 
students again closed the achievement gap. They are 
outperforming white students statewide, despite a 30-to 40-
point achievement gap on all of those state tests.
    We are proving at Uncommon Schools that this success is not 
only replicable but scalable. We are growing from 11 schools to 
what will be 33 schools by 2014, and we are building, we 
believe, a model for what a highly effective urban school 
system should look like.
    In a nation where only about 50 percent of the students in 
large urban districts graduate from high school, and where only 
9 percent of our country's lowest-income students are 
graduating from college compared to 75 percent of the highest-
income students, there can be little question that education is 
the civil rights issue of our time.
    Uncommon Schools--we know we are not going to be the whole 
answer. We know charter schools are not the whole answer. But 
we believe that charter schools can be an essential part of 
dramatically reforming public education and changing our 
country.
    Thank you for your time today.
    [The statement of Dr. King follows:]

    Prepared Statement of Dr. John B. King, Jr., Managing Director,
            Excellence Preparatory Network, Uncommon Schools

    Thank you Chairman Miller and members of the Committee for the 
opportunity to testify today. My name is John King and I am a Managing 
Director with Uncommon Schools, a non-profit charter management 
organization. I am here today to talk about my experiences as an 
educator and to ask the Committee to support initiatives to increase 
the number of high performing charter schools serving low-income 
students. I am convinced that the autonomy of charter schools with 
respect to budget, staffing, curriculum and instruction, and school 
culture in combination with greater accountability for performance can 
create the context for both innovation and excellence.
    I grew up in Brooklyn, New York--the son of two career New York 
City public school educators. My father, who grew up in the Bedford 
Stuyvesant section of Brooklyn in a family just a couple of generations 
removed from slavery, served as a teacher, principal, and eventually 
Deputy Chancellor over the course of a nearly forty year career with 
the New York City schools. My mother came to the Bronx from Puerto Rico 
as a small child with her single mother and was a teacher and guidance 
counselor in some of the most challenging schools in New York City. My 
parents provided an extraordinary example for me of dedication to 
public service. However, I did not get to know them well because they 
passed away when I was in elementary and middle school. During that 
difficult period, fantastic teachers in New York City public schools 
made a huge difference my life. My experiences at P.S. 276 and Mark 
Twain J.H.S. led me to believe deeply in the power of public education 
to transform lives.
    As a result of the difference schools made in my life, I became a 
teacher and then a principal. In 1999, I co-founded Roxbury Preparatory 
Charter School in Boston, the highest performing urban middle school in 
Massachusetts for five years running and a school that has closed the 
racial achievement gap on state exams. Roxbury Prep's student body--
selected by random lottery--is 100% African-American and Latino; over 
70% of the students qualify for free and reduced price lunch, and the 
school is dramatically outperforming not only the Boston Public 
Schools, but many of the most affluent suburban districts around the 
state. Value-added data shows that the key to success at Roxbury Prep 
is not creaming: students generally come in significantly behind grade 
level, but make huge gains. One hundred percent of Roxbury Prep's 8th 
grade graduates go on to attend college prep high schools, including 
Boston's prestigious public exam schools and elite New England 
independent schools. We keep careful track of our alumni and know that 
about 80% of Roxbury Prep's college-age alums are on track to graduate 
from college compared with fewer than 10% of adults in Roxbury who hold 
Bachelor's degrees.
    How is Roxbury Prep achieving these exceptional results? The 
autonomy we have as a charter school in making decisions about budget, 
staffing, curriculum and instruction, and school culture has allowed us 
to:
    <bullet> Establish a compelling mission to prepare our students to 
enter, succeed in, and graduate from college
    <bullet> Create a small school community in which every adult knows 
every student
    <bullet> Attract and retain outstanding teachers selected from 
among more than 80-100 candidates for every opening
    <bullet> Set high standards for academics and character
    <bullet> Extend our school day to incorporate double periods of 
literacy and math, science and social studies every day, and enrichment 
for all students
    <bullet> Make substantial investments in professional development 
for teachers including more than three weeks of curriculum development 
each summer and dedicated time each week for teachers to analyze 
student performance data and plan collaboratively
    However, autonomy alone does not guarantee success. Every trustee, 
administrator, and teacher at Roxbury Prep understands that the 
school's bottom line is student achievement and that the school's 
charter will only continue to be renewed if the school fulfills its 
academic mission. Ensuring that schools use their autonomy effectively 
requires a strong system of accountability that ties schools' continued 
existence to results.
    Given the success of Roxbury Prep, I wanted to figure out how such 
results could be replicated on a larger scale. I moved back to New York 
City--both because of the opportunity to create better educational 
opportunities for students in the community where I grew up and because 
the New York State charter law, New York's rigorous authorizing 
process, Mayor Bloomberg, and Chancellor Klein had created an 
educational environment that fosters innovation. Uncommon Schools, 
where I now serve as a superintendent of a small network of charter 
schools, has as its mission starting and managing urban charter public 
schools that aim specifically to close the achievement gap and prepare 
low-income students to graduate from college. Each of the Uncommon 
Schools is modeled on the best practices of three of the highest 
performing urban schools in the country: Boston Collegiate Charter 
School, North Star Academy Charter School, and Roxbury Prep. Uncommon 
Schools' student demographics reflect the student populations of the 
communities where they are located. Our schools have similar 
percentages of students who require Special Education services, and 
even higher percentages of African American and Latino students than 
other schools in their districts. The average percentage of students in 
our schools qualifying for Free and Reduced Price Lunch mirrors the 
average for their school districts.
    Uncommon Schools is proving that success is replicable. Across our 
11 schools in New York City, Newark, New Jersey and upstate New York, 
our students--all selected by random lottery and most entering our 
schools well below grade level--are thriving. In 2007, one of our 
middle schools, Williamsburg Collegiate Charter School, was the #1 
ranked public middle school on the Chancellor's progress reports. In 
2008, Excellence Boys Charter School, was the #1 ranked public 
elementary school on the Chancellor's progress reports. We just 
recently received the 2009 state exam scores and I am pleased to report 
that our students again closed the racial achievement gap (see Exhibit 
A, next page).
    Across all of Uncommon's New York schools, 98% of students scored 
Advanced or Proficient on the 2009 state Math exams, compared with 92% 
of White students statewide, 80% of Hispanic students statewide, and 
75% of Black students statewide. On the English Language Arts exams, 
89% of Uncommon's students scored Advanced or Proficient, compared with 
86% of White students statewide, 65% of Latino students statewide, and 
64% of Black students statewide.
    Uncommon Schools is proving that success is scalable. As we grow 
Uncommon Schools, we are trying to build systems that will allow us to 
achieve in 33 schools, serving over 8,000 students by 2014, what we are 
now achieving in 11 schools. We are in essence trying to build a model 
of what a highly effective urban school system should look like by 
leveraging the freedom we have as charter schools. We are particularly 
focused on building excellent systems for training and supporting 
outstanding school leaders and teachers. Recently, we launched a 
teacher education program at Hunter College in partnership with two 
other high performing charter networks, KIPP and Achievement First. 
Over time, that teacher education program, called Teacher U at UKA 
(Uncommon Knowledge and Achievement), will train over 1,000 teachers 
each year, most of whom will be working in traditional New York City 
district schools as Teach for America corps members or New York City 
Teaching Fellows.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In a nation where only about 50% of the students in large urban 
districts graduate from high school and where only 9% of our country's 
lowest income students are graduating from college compared to 75% of 
the highest income students, there can be little question that 
education is the civil rights issue of our time. I recognize that the 
work we are doing at Uncommon Schools is only one part of what must be 
a multi-pronged national strategy to dramatically reform public 
education, particularly schools that serve low-income students. 
However, the evidence is clear that the success of Roxbury Prep, 
Williamsburg Collegiate, and Excellence Boys is both replicable and 
scalable when school leaders are given autonomy with respect to budget, 
staffing, curriculum and instruction, and school culture and held 
strictly accountable for their results.
    Again, thank you for your time today.
                                 ______
                                 
    Chairman Miller. Mr. Goenner?

STATEMENT OF JIM GOENNER, BOARD CHAIR, NATIONAL ASSOCIATION OF 
  CHARTER SCHOOL AUTHORIZERS, LEAD AUTHORIZER, THE CENTER FOR 
         CHARTER SCHOOLS AT CENTRAL MICHIGAN UNIVERSITY

    Mr. Goenner. Chairman Miller, committee members, thank you 
for allowing me to be here with you today, and a special thank 
you to Mr. Kildee and Dr. Ehlers for that kind introduction.
    My name is Jim Goenner and I serve as the executive 
director for the Center for Charter Schools at Central Michigan 
University. I also wear the hat of board chair of the National 
Association of Charter School Authorizers.
    Rather than focus on some of the political and policy 
arguments around charter schools, I am here as someone in the 
trenches working every day to help make things happen for kids.
    I have been involved with charter since 1995 and in some 
ways, with this thing called charters, that makes me somewhere 
near the third generation. As you know, our home state, 
Michigan, is being forced to rethink how it does business every 
day. It is also painfully clear that refusing to change is no 
longer an option.
    But there is one thing that brings us all together, and 
that is kids and education. It is universal common ground that 
kinds and access to quality education, especially those most in 
need, bind us together. And to be part of this distinguished 
group of advocates for kids is also an honor.
    You have asked today to focus on what works, and I am here 
to share both what works and also what we can learn from what 
hasn't worked. At Central Michigan University--we were founded 
in 1892 to prepare teachers and school leaders. We have a rich 
tradition of doing that.
    But we, too, have been troubled by the achievement gap, 
like you. In 1994 our board of trustees decided to get actively 
involved by becoming the first university in the country to 
charter a school.
    Today, we are the largest university authorizer, chartering 
30 schools--or 58 schools with 30,000 students across the state 
of Michigan. Two-thirds of those students are minority. Two-
thirds of those students are poor. They range from schools we 
charter in rural areas to suburban areas. The vast majority are 
in our urban areas where the need is the greatest.
    When we talk about charter schools, we are really talking 
about a performance contract. This is an example. When Central 
Michigan University issues a charter, this is the performance 
contract between the university board and the charter school 
board. I am responsible for making sure that that happens 
effectively.
    The charter contract is key because in order to have the 
accountability that is been talked about, there has to be clear 
expectations. We know that is true. It is one of the things 
that, as the National Association of Charter School 
Authorizers, we are advocating across the country and before 
Congress through our principles and standards.
    And also, in Michigan we are taking those and customizing 
to our own state with what we call our own oversight and 
accountability standards.
    While we are all creating new innovative schools, they have 
something in common, and that is they are public schools, and 
they need to be accountable to the kids, and they need to be 
accountable to the taxpayers.
    We think the power of charter schools is that they are 
dually accountable, meaning they are accountable to a public 
authority but they are also accountable to the parents who can 
vote with their feet.
    Michigan's law requires charters to be granted on a 
competitive basis. When we--because of our state cap we can 
only charter a school if we close an existing one. When we 
closed the last school for non-performance we had 41 groups 
apply for the new charter.
    We had many, many, many of those groups that could have 
done great things for kids. But again, because of the cap, we 
could only pick one. And I am proud to say we picked one of the 
best, and it will open this fall.
    But there is more that can be done for kids, and there is 
more need than we have capacity to handle. Our goal is that if 
you come to this new school this fall, you will walk in, you 
will look around and you will say, ``Wow, this is a great 
school. You must be in about your third year of operation.''
    And everybody will quietly smile and say, ``Actually, we 
just opened,'' because we were so prepared to hit the ground 
running and that we knew our kids were going to be counting on 
us from day one.
    Closing schools is something that is very real. We want 
every school we charter to be successful. But we also know that 
if you don't deliver academic results and good stewardship for 
the taxpayers, you can't continue. That tough love rhetoric 
sounds good. It is a challenge to carry out.
    School closures impact people in real ways. They impact 
teachers. They impact students. They impact families. They 
impact pocketbooks, people that have mortgages and car payments 
to make.
    And we know that it is often embarrassing for boards and 
management of schools that they are the stewards of to have 
them close. And they often try and go on attack and even get 
people like yourselves involved in that process.
    But it is important that we uphold the integrity of the 
charter idea, that we uphold the academic accountability and 
the fiscal stewardship.
    And as Americans, we believe in due process. We believe in 
fairness. And having been involved in closing a dozen schools 
since 1995, and with some of the battle scars to show, I can 
tell you these are decisions not to be taken lightly.
    But we have to do what is best for students, and that is, 
again, what brings us all together today. Even though 
chartering is hard work, we know that there is tremendous 
opportunity. We have demonstrated the achievement gap can be 
closed.
    Minority students and even homeless students in the schools 
we charter are now on par with their peers statewide. We, as 
Congressman Ehlers said, can brag that the number one 
performing school in the state of Michigan is a school we 
charter. We are proud to have three high schools that were 
named among America's best on U.S. News & World Report.
    And yet with all of that said and done, we are only getting 
started. The work is real. The work is hard. And the work must 
continue, because there is more to do for kids and for our 
future of our country and our state and our families.
    Thank you.
    [The statement of Mr. Goenner follows:]

      Prepared Statement of James N. Goenner, Executive Director,
      the Center for Charter Schools, Central Michigan University

    Mr. Chairman and members of the Committee, thank you for inviting 
me to testify this morning. My name is Jim Goenner and I'm wearing two 
hats today. The first hat is chairman of the Board of Directors of the 
National Association of Charter School Authorizers. The second hat is 
my day job, where I serve as the Executive Director of The Center for 
Charter Schools at Central Michigan University.
    With these two hats, I can offer both a national perspective and a 
hands-on perspective from someone working in the trenches each day. I'm 
also considered a veteran, meaning I've been involved with charter 
schooling almost since its inception. And I can attest, I've seen the 
good, the bad, and the ugly.
CMU's Leadership
    Founded in 1892, Central Michigan University has a proud heritage 
of preparing teachers and school leaders. Like Congress, CMU has been 
deeply troubled by the achievement gap between minority and white 
students.
    In 1994, our Board of Trustees took a leadership role and became 
the first university in the country to charter a school. Today, 58 
schools are chartered by CMU, serving 30,000 Michigan students, making 
us the largest university authorizer in the nation. CMU is also home of 
the National Charter Schools Institute. We are not a school district--
each charter school is an independent, autonomous public body with its 
own governing board. However, if we were, we'd be the second largest 
district in Michigan.
    Fundamentally, we believe all students deserve quality educational 
options, especially those most in need. In fact, two-thirds of the 
students enrolled in the schools we charter are children of color, and 
two-thirds are eligible for free or reduced price lunch. We charter 
schools located in rural and suburban areas, but the vast majority 
serve our urban communities--particularly Detroit.
Closing the Achievement Gap
    Promising practices at the schools we charter show that the 
achievement gap can be closed. Based on the results of our state 
assessment--the Michigan Educational Assessment Program (MEAP)--
minority and homeless students in third through eighth grades performed 
better that their peers statewide.
    Of the nearly 800 school districts in Michigan, 7 charters' MEAP 
scores placed in the top 25. Four of those schools are chartered by 
CMU. In fact, the number one performing public school district in the 
state, Canton Charter Academy, is a school we charter. It is governed 
by an outstanding board and is managed by National Heritage Academies. 
The school leader and teachers have created a winning formula as 
demonstrated by their test scores, but also by the fact that they have 
over 1,500 students on their waiting list.
    We also received a letter from the Michigan Department of Education 
commending CMU for 18 of the schools we charter that are ``beating the 
odds,'' meaning schools that achieved over 60% academic proficiency 
where over 50% of their students qualify for free or reduced price 
lunch.
Chartering Change
    At its core, ``charter schools'' is a strategy--a legislative 
strategy to transform public education by harnessing the powers of 
choice, innovation and accountability. We are at work every day to put 
this strategy into action. We are creating hope and opportunity. In 
short, we are serving as a catalyst to help transform and revitalize 
public education.
    Michigan's charter school law, which is considered to be one of the 
nation's strongest, requires charters to be granted on a competitive 
basis. At CMU, we look for applicants--we call them development teams--
that have a promising vision for kids, the ability to develop a quality 
educational program, a sound business plan and the ability to 
implement. We look for people that have a track record of success. 
People that will put kids first. People that are passionate about 
pursuing excellence. People that know how to build teams and deliver 
results.
Charter Application Process
    We run a multi-phased application process for new charters. Our 
review team is composed of subject matter experts from The Center at 
CMU, along with experts from around the country. Because of Michigan's 
cap on the number of the charters that can be granted by state 
universities, we can only charter a new school if we close an existing 
school--hindering our ability to charter new schools for students in 
areas where school districts fail to provide quality options.
    For example, after we closed a school for poor performance, we 
publicly announced the opening of our application process. We received 
41 Phase I applications. Phase I consists of a high level overview of 
the proposed school--essentially, an executive summary. We invited nine 
of the 41 to continue into the next phase. Phase II is very rigorous 
and requires significantly more work and detail than Phase I. It ranges 
from detailed demographic data about the student population to be 
served, to the curriculum to be used, to the facility, its location and 
its suitability as a learning environment, to the budget and business 
plan that will make it all happen.
    Even though there were several highly qualified development teams 
that could have done great things for kids, because of our state cap, 
we were only able to invite one of the nine Phase II applicants to 
continue on and begin preparing the legal documents necessary for the 
University Board to approve and issue the charter. This is an intensive 
time. We perform significant due diligence to ensure that everything is 
legally structured, arms-length and free from conflicts of interest.
    Our goal is that if you visited the new school after only a few 
weeks of operation, you'd say, ``Wow! This is a great school. Is this 
your third year of operation? ``And we'd be able to smile and say, 
``No, we just opened, but we were prepared to hit the ground running, 
because we knew our students would be counting on us day one.''
Charter = Performance Contract
    Each charter issued by the University Board is a performance 
contract. We believe that a contract that clearly establishes 
performance goals, as well as defines roles and responsibilities, is an 
essential quality control needed to create a successful school. The 
charter contract is between the University Board and the Charter School 
Board and is filed with the Michigan Department of Education.
    Each charter is incorporated as a Michigan nonprofit corporation, 
is a body corporate, and a governmental entity under Michigan law. 
Unique to Michigan, a charter school's governing board members swear a 
constitutional oath of office, serve as public officials, and have the 
primary responsibility for ensuring the school complies with its 
charter contract and applicable law.
Oversight and Accountability
    As a performance contract, each charter issued by CMU contains 
numerous provisions. However, it really all just all boils down to two 
main questions. Are the kids learning? And is the public's money being 
cared for?
    Michigan's charter schools are required to comply with essentially 
the same requirements as all school districts are subject to, and 
authorizers are held to a high standard by law to oversee the schools 
they charter. This oversight must be sufficient to be able to certify 
that each charter is in compliance with ``statute, rules, and the terms 
of the contract'' (MCL 380.504).
    CMU was audited against this standard in 1997 by Michigan's Auditor 
General. At that point in time, no one knew what this standard meant, 
much less how to operationalize it. Needless to say the audit report 
was not favorable.
CMU Recognized as ``Gold Standard''
    But the rest of the story goes like this. With a focus on quality, 
we went to work on upgrading our systems. When the follow-up audit was 
released in 2002, our oversight was found to be first rate, and the 
Michigan Department of Education and the media began publicly referring 
to CMU as ``the gold standard of charter public school 
accountability.''
    Our operations were also inspected by the Michigan Department of 
Education in 2005. We received a perfect score on the 18 critical 
oversight processes they examined. Their letter to me concluded, ``What 
we (MDE) came to understand about your systems will help us reassure 
Michigan citizens who express concern about public accountability for 
public school academy boards with regard to their operations and 
policies.''
State and National Impact
    The success resulted in our systems, policies, and procedures 
becoming national models for other authorizers. While we are proud of 
what has been accomplished to date, we know there is much more to do to 
continuously improve our own performance at CMU and raise the standards 
for authorizing across the country.
    Beyond hosting policymakers, researchers and charter school leaders 
from around the country, and speaking at state and national 
conferences, one of our more significant contributions to advancing 
quality is our participation in the development of NACSA's Principles & 
Standards for Quality Charter School Authorizing, and the Michigan 
Council of Charter School Authorizers' Oversight and Accountability 
Standards. Further, we served on the National Consensus Panels for 
Academic and Operational Quality.
    Perhaps even more importantly, we took it upon ourselves at CMU to 
design and build a software system to streamline and automate the 
regulatory reporting process. Our goal was to streamline compliance, 
allowing school leaders to spend more of their time on their primary 
mission of educating students.
    Today, I'm proud to say that this software system called AOIS is 
being used by 14 organizations in 8 states (Arizona, Colorado, Florida, 
Indiana, Illinois, Michigan, Missouri and Ohio) along with the District 
of Columbia Charter Public School Board, to oversee schools.
Reauthorization
    In his book, The Seven Habits of Highly Effective People, author 
Stephen Covey reminds us to begin with the end in mind. This is sage 
advice for charter school authorizers as well.
    Reauthorization is a significant milestone for authorizers and 
schools. Reauthorization means the charter contract will soon expire 
and a determination must be made if the school has delivered on its 
promises.
    At CMU, the reauthorization process is guided by three core 
questions:
    1. Is the school's academic program successful?
    2. Is the school's organization viable?
    3. Is the school demonstrating good faith in following it charter 
contract and applicable law?
    If the answers to these core questions are affirmative, the 
University Board issues the school a new charter contract.
Differentiating Performance
    One way CMU differentiates the performance of the schools it 
charters is based on the length of the charter contract. Schools that 
exceed their goals are reauthorized for seven years. Schools that meet 
their goals are reauthorized for five years. Schools that have not met 
all their goals, but are demonstrating solid progress are reauthorized 
for three years. Schools not delivering, but that are committed to 
turning things around, are issued a one-year probationary contract. 
Schools that are unwilling or unable to deliver results are not 
renewed.
Closing Schools
    While we want every school we charter to succeed, realistically we 
know that will not always be the case. In fact, this is a critical 
element of the charter strategy. Schools that deliver results continue; 
those that do not go away. This type of performance-based 
accountability is what is necessary to improve all public schools.
    This tough love rhetoric sounds good. In reality, it is a challenge 
to carry out. But for those schools that fail to deliver academic 
results or properly care for the public dollar, the must be held 
accountable to protect kids and the public, and to ensure the integrity 
of the charter promise is upheld.
    Being on the front lines and being intimately involved in these 
difficult decisions, I can assure you that closing a school is not 
something anyone should take lightly. School closures impact real 
people in real ways. Students and parents are forced to find another 
school. Teachers and support staff have to find other jobs. The board 
and management often feel embarrassed and try to go on the ``attack.'' 
Needless to say, emotions run high. And as you know, some try to get 
their elected officials involved in the hopes that you will take their 
side in advocating for the school to stay open.
    While I'd like to believe that all authorizers want their charter 
schools to succeed and operate in a professional manner, providing 
their schools with regular feedback and reports regarding their 
performance or lack thereof, we all know that it not uniformly true. 
Yet, I would contend that schools who consistently deliver academic 
results for kids, and are good stewards of the public dollar, are not 
in danger of being closed.
    As Americans, we believe in due process and fair treatment. 
Charters deserve this as well. But it is absolutely essential that 
authorizers have the tools they need to close schools that fail to 
deliver or have the ability to sanction activity that would lead to 
closure if corrective action is not taken.
    Having closed or not renewed about a dozen schools over 15 years of 
authorizing--and having the battle scars to prove it--I'm confident 
that each decision was made by focusing on what's best for students and 
ensuring the public dollar is cared for. In conjunction with the 
Michigan Departments of Education and Treasury, we and our authorizer 
colleagues through the Michigan Council of Charter School Authorizers 
have developed Wind-Up and Dissolution Procedures. These procedures 
ensure that there is as smooth a transition as possible for students 
and their families, while safeguarding public records and public 
assets. Upon dissolution, any remaining assets are returned to the 
state Treasury.
Conclusion
    The charter schools strategy is helping transform public education 
in America. Yet the demand for more great schools, along with President 
Obama's call to close failing schools and replace them with schools 
that deliver results for kids and taxpayers, seems almost overwhelming. 
Fortunately, there are successful school models and successful 
authorizing models that we can nurture, grow and replicate. CMU and 
NACSA stand ready to work with President Obama, Secretary Duncan, the 
United States Congress and all those who are committed to passionately 
pursuing excellence for all students--especially those in greatest 
need.
                                 ______
                                 
    Chairman Miller. Mr. Dunn?

    STATEMENT OF DAVID DUNN, DIRECTOR, TEXAS CHARTER SCHOOL 
                          ASSOCIATION

    Mr. Dunn. Thank you, Chairman Miller and committee members. 
It is an honor be here this morning.
    Both at the White House in the Domestic Policy Council and 
as chief of staff at the Department of Education, it was my 
privilege to work alongside Secretary Spellings with the 
Congress and this committee in support of education reform.
    Now I have moved closer to the front lines of public 
education and innovation as the executive director of the newly 
formed Texas Charter Schools Association. We represent more 
than 56,000 students in 316 public charter schools across the 
state.
    Texas charter schools fall into three broad groups--those 
schools that are focused on preparing students for college, 
schools that are serving students who have either dropped out 
or are on the verge of dropping out of the traditional public 
school system, and then schools created to meet unique 
academic, social or community needs.
    As different as these schools may be, there is one thing 
they all have in common, and that is uniform support for 
President Obama's call to double the funding for the federal 
charter school program, or CSP.
    The program is critical to the startup of new public 
charter schools, and I encourage the committee to work with the 
administration so the growing demand for public charter schools 
can be met.
    Some 17,000 Texas students are currently waiting to attend 
a quality public charter school, and doubling the funding for 
this program will certainly help them achieve that goal.
    Texas is one of just three states that have the ability to 
use the CSP funds to open new schools under an existing 
charter.
    This means charters like IDEA Public Schools, in your 
district, Congressman Hinojosa, can use these funds to open new 
campuses, but they cannot use them to expand already open and 
growing campuses or to align grades among campuses.
    The committee should consider, in our opinion, changing the 
law to provide states greater flexibility in the use of CSP 
dollars. Federal flexibility is important, but states, as you 
know, have the primary responsibility to improve public 
charters.
    The Texas legislature just completed its work Monday and 
failed to pass key reforms that would promote growth of quality 
public charter schools. These reforms were scuttled in the 
final hours of session--literally, the last hour--after having 
broad bipartisan support in both chambers.
    Our charter law is now 14 years old, and in the past 12 
months Texas hit the statutory cap on the number of charters 
allowed.
    This bill would have allowed the state board of education 
to grant an additional 12 charters a year, enabling managed 
growth of high-quality charter schools.
    With strong support during the Bush administration, and 
even stronger support now under President Obama and Secretary 
Duncan, it is disappointing that some state legislatures still 
don't understand the benefits of public charter schools and 
remain obstacles toward reforming public education in this 
country.
    On Sunday of this week, Texas Representative Lon Burnam 
from Fort Worth said on the record, regarding our charter bill, 
``This is a massive charter school expansion bill. I hate 
charter schools. I am going to kill the bill.'' He did.
    As the executive director of a state organization, it is 
very frustrating that elected officials continue to see charter 
schools as competition for the traditional--or for the public 
school system. We, in fact, are a part of that system, a very 
crucial part that reaches kids who need education to transform 
their lives.
    The Texas legislature also failed to give the commissioner 
of education additional authority to close charter schools that 
are not meeting academic or financial standards.
    President Obama and Secretary Duncan have said setting 
artificial caps on the number of quality charter schools in a 
state traps thousands of students in schools that don't work. 
In our state, that is 17,000 kids.
    Our dropout recovery charter schools are educating a 
population of students that have already failed in the 
traditional system and come to public charter schools, in many 
cases, years behind. The progress of these schools should be 
measured with care. Sometimes we are too quick to label some of 
these schools as underperforming.
    Equitable funding for our schools and the ability to fairly 
access the array of state and federal funds that are available 
to our traditional schools is the most important challenge we 
face. And yet amazing work is still being done despite the 
financial disadvantages.
    Just recently, TCSA member Tom Torkelson--again, CEO of 
IDEA Public Schools, serving the predominately Hispanic Rio 
Grande Valley--was nominated as one of Time Magazine's 100 most 
influential people in the world. This is no small achievement.
    Public charter schools in Texas directly impact our 
country's future. The association opened its doors less than a 
year ago with the goal of unifying Texas charter schools and 
developing a quality framework for effective public charters of 
all types.
    Working with the University of Texas system, the Walton 
Family Foundation, Michael and Susan Dell Foundation and the 
Bill and Melinda Gates Foundation, TCSA member schools are 
building a quality framework that will both define and measure 
the academic and financial success of public charter schools.
    We are building a robust and transparent structure that our 
school leaders will use in real time to improve performance. 
Every TCSA member will go through this quality framework and 
must sign a quality pledge, giving the public and policy makers 
greater confidence.
    Thank you, Mr. Chairman. I would be happy to respond to 
questions.
    [The statement of Mr. Dunn follows:]

         Prepared Statement of David Dunn, Executive Director,
                   Texas Charter Schools Association

    Thank you Chairman Miller and Mr. McKeon, it is an honor to appear 
before the committee today. Both at the White House in the Domestic 
Policy Council and as chief of staff at the Department of Education it 
was my privilege to work alongside Secretary Spellings with the 
Congress and this committee in support of education reform. I appear 
before you as someone who has returned to the front lines of public 
education innovation as the Executive Director of the newly formed 
Texas Charter Schools Association (TCSA). We represent more than 56,000 
students in 316 public charter schools in Texas.
    Texas charter schools fall into three broad groups: schools 
preparing their students for college, schools serving students who have 
already dropped out or have not succeeded in traditional settings, and 
schools created to meet unique academic, social, or community needs.
    As different as these schools may be, there is one thing they all 
have in common: and that is uniform support for President Obama's call 
to double the funding for the federal charter school program or CSP. 
The program is critical to the start-up of new public charter schools 
and I encourage the committee to work with the administration so the 
growing demand for public charter schools can be met. Some 17,000 Texas 
students are currently waiting to attend a quality public charter 
school, and doubling the CSP funding will help new charters to open.
    Texas is one of just three states that have the ability to use the 
CSP funds to open new schools under an existing charter. This means 
charters like IDEA Public Schools, in your district Congressman 
Hinojosa, can use CSP funds to open new campuses--but they cannot use 
them to expand already open and growing campuses or to align grades. 
The committee should consider changing the law to provide states 
greater flexibility in the use of CSP dollars.
    Federal flexibility is important, but states have the primary 
responsibility to improve public charters. The Texas Legislature just 
completed its work Monday and failed to pass key reforms that would 
promote growth of quality public charter schools. These reforms were 
scuttled in the final hours of session after having bi-partisan support 
in both chambers. Our charter law is now 14 years old and in the past 
twelve months our state hit the statutory cap on the number of charters 
allowed. A bill that would have allowed the State Board of Education to 
grant an additional 12 charters a year, enabling managed growth of high 
quality charter schools, failed to pass.
    With strong support during the Bush Administration, and now even 
more so with President Obama and Secretary Duncan--it's disappointing 
that some state legislators still don't understand the benefits of 
public charter schools and remain obstacles toward reforming public 
education in this country. On Sunday of this week, Texas Representative 
Lon Burnam from Fort Worth said ON THE RECORD regarding our charter 
bill, ``This is a massive charter school expansion bill. I hate charter 
schools. I'm going to kill this bill.'' And he did. As the Executive 
Director of a state organization--it's very frustrating that elected 
officials see us as competition to the public school system, when we're 
part of it--a very crucial part that reaches kids who need education to 
transform their lives.
    The Texas Legislature also failed to give the Commissioner of 
Education additional authority to close charter schools that are not 
meeting academic or financial standards. President Obama and Secretary 
Duncan have said setting artificial caps on the number of quality 
charter schools in a state traps thousands of students in schools that 
don't work. In our state that's 17,000 kids. Our drop-out recovery 
charter schools are educating a population of students that have 
already failed in the traditional system and come to public charter 
schools in many cases years behind. The progress of these schools 
should be measured with care. Sometimes we are too quick to label these 
schools as underperforming.
    Equitable funding for our schools and the ability to fairly access 
the array of state and federal funds that are available to our 
traditional schools is the most important challenge we face. Amazing 
work is still being done despite the financial disadvantages. Just 
recently, TCSA member Tom Torkelson, CEO of IDEA Public Schools serving 
the predominately Hispanic Rio Grande Valley, was nominated for Time 
Magazine's 100 most influential people in the world. This is no small 
achievement; public charter schools in Texas directly impact our 
country's future.
    The association opened its doors less than a year ago with the goal 
of unifying Texas charter schools and developing a quality framework 
for effective public charters of all types. Working with the University 
of Texas System with the support of the Walton Family Foundation, The 
Michael and Susan Dell Foundation, and the Bill and Melinda Gates 
Foundation, TCSA member schools are building a quality framework that 
will both define and measure the academic and financial success of 
public charter schools.
    We are building a robust and transparent structure that our school 
leaders will use in real time to measure how well they are performing 
across a broad range of indicators. Our members know how important it 
is to develop a system that works for a multitude of school types. 
Every TCSA school will complete the quality framework process and sign 
a quality pledge, giving the public and policy makers greater 
confidence.
    Thank you for the opportunity to appear before you. I'll be pleased 
to answer any questions you may have.
                                 ______
                                 
    Chairman Miller. Thank you. Thank you very much.
    Lieutenant Governor O'Brien, you state in your testimony 
that NCLB produced additional data confirming that low-income, 
minority and rural students are, indeed--were being left 
behind. That was the intent of that legislation, holding people 
responsible for each and every child in the schools.
    It was information that was only kept from the public. 
Everybody else in the system knew what was happening at that 
time. And charter schools, I think, in--to some extent have 
been a response to that, recognizing that it wasn't the 
children that perhaps were failing, it was perhaps the system.
    In my 35 years in the Congress, the most difficult thing to 
do in education is replication of excellence or of success.
    Very often, what we do is we take something that was 
successful in School A or District A and we impose it on 
District W, and we don't ask any questions about whether 
District W has the capacity, the talent, the skills, the 
experience to deal with it.
    We just impose upon them and then we wait to see if they 
have the same success that District A had. And when they don't, 
we say, ``Well, get rid of that model. Let's try District D's 
model and see if we can get District D to participate.'' 
Thirty-five years we have been doing this, and we are where we 
are today.
    I would like to ask you and Mr. Barr and Dr. King, because 
the tragedy of what No Child Left Behind has demonstrated to 
the public in terms of where these children are is what Steve 
just told us about, if you fill the stadium with the Locke 
school attendees.
    And the question is we are now in the discussions of how do 
we expand and replicate the successes of charter schools, but I 
don't think it is by the way we have tried to replicate in the 
past, and we had an earlier hearing a week ago, and one of 
the--a charter school from Philadelphia described putting 
together the team in a capacity to deal with the vision or the 
end result that you want.
    And I just wondered if you might address this, because this 
is the topic that Mr. McKeon referred to, and Mr. Polis is 
working, and the administration is discussing about how do we 
expand this but maintain the quality, accountability and the 
rest of it.
    Ms. O'Brien. Thank you, Mr. Chairman. We have so much more 
data now than we had 35 years ago or even 15 years ago that I 
think higher-quality decision-making is possible. That is a new 
factor that we have to work with.
    And I think what we are seeing with a lot of charter 
schools is that they take a year to open up, so they get a 
principal in place, they get training, they select a team of 
teachers that understand the mission of the school. They get 
training as a team.
    A lot of these charter schools have figured out how to have 
more planning during the day and by being flexible with the 
teachers' schedules, and they, you know, bought--they buy into 
it because that is why they are at that school.
    They are able to have more time on task for the kids, but 
the teachers have more time to think and plan and collaborate, 
because they are flexible with how they cover time.
    So I think that we are at a place where we know a whole lot 
more. We now have seen how we replicate successful schools. We 
have networks that are expanding. Right in Denver we have one 
really good charter school that is going to turn into five in 
the next 4 or 5 years.
    So I just think we know a whole lot more now than we knew 
before, and we can be smarter about how we replicate and 
expand. And kids are responding. They are studying harder. They 
are doing homework. I really think that replication and 
expansion--but based on really good data--is the formula for 
going forward.
    Chairman Miller. Steve, you went through an extended period 
of trying to assemble the team at Locke. What is your sense 
about replication?
    Mr. Barr. Well, the good news is we know it works. I mean, 
that is the good news. And then how do you create political 
will and actually move this through?
    I mean, we know small schools work. We know that high 
expectations work. We know that dollars following reform works. 
We know that you can involve parents. This is at least our 
experience.
    And so the real question is how do you--if you want to 
replicate that, you have got to create the political will and 
leadership. I mean, the first thing you guys could do, if you 
are asking for recommendations on how to scale a Green Dot, 
is--you know, and I don't know if there is going to be any 
takers on this, but make private schools illegal and it will 
scale real fast.
    If all of the richest people and affluent people, and the 
most politically connected people in this country had to send 
their kids to Locke High School, you know, you would hire 
McKinsey, and they would go and find out who does it really 
well, and you would say, ``Okay, that is our model. Let's scale 
it real fast.'' It would happen, you know, in a blink of an 
eye. So that is the good news.
    What is missing is leadership. I mean, you know, I think 
the Green Dot model is--and I think you see even pieces of it 
in the committee here--is immediately when we talk about public 
education we all resort to our tribes. There is the charter 
school tribe. There is the union tribe. There is the status 
quo, the school district tribe. There is the--and everybody 
kind of points fingers at each other.
    You know, the point of it is whether or not in every 
community in this country--I think Michelle Obama said it best 
during the campaign one night falling asleep watching C-SPAN. 
She said that every neighborhood in this country, whether it be 
in the urban core or the suburbs, they--every parent knows 
there is that one school in their neighborhood that is the 
school.
    It is the school that parents in the middle of the night go 
and wait in line for. They get in a lottery. They try to borrow 
somebody's address to send their kid to that school. The 
question is why don't all schools look like that school. You 
know, is it some unique group of people, or is it that school?
    And so really, the question is how do we get to scale. I 
mean, at Locke High School we enacted a part of No Child Left 
Behind. The majority of the tenured teachers in a failed school 
did the impossible. They were so fed up with the lack of 
support from the school district and their teachers' union that 
they, knowing they weren't going to be asked back, liberated 
the school out of total frustration.
    And what that told me is that teachers share the same 
frustration as parents, because in a failed centralized system 
those are the two tribes that are affected most by that 
failure. If they can figure out a way to find a model that fits 
both their needs, we can move this fast. And that includes 
parents and teachers.
    Chairman Miller. I want to give Dr. King an opportunity 
just to respond quickly. I am borrowing my colleagues' time up 
here. That is the polite way of saying it.
    Yes.
    Dr. King. Sure. I think the two biggest constraints on 
replication are facilities and people. Facilities is in some 
ways easier to deal with. In New York City the mayor and the 
chancellor have committed to give high-performing schools space 
in district buildings, and so that has removed facilities 
largely as an obstacle.
    People is much more challenging. I think that the real 
underlying challenge is that the programs that train teachers 
and principals aren't accountable for the performance of their 
graduates.
    And so we are trying in New York City, in partnership with 
KIPP and Achievement First, two other charter management 
organizations, to build a new teacher ed program at Hunter 
College where not only will we train teachers in the practices 
that are working in our schools, both for our own schools and 
for the district, but then we will also require them to 
demonstrate results in the classroom before they earn a degree 
or certification.
    Chairman Miller. Thank you.
    Congressman Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, Mr. Goenner, as you know, Michigan has had 
caps for a number of years, and the issue of caps is often 
debated. I am--I wonder if you can tell me just how that is 
affecting things in Michigan.
    Secretary Duncan was recently in Michigan discussing the 
caps issue in which he explained that caps will make it more 
difficult for the state to receive stimulus funds. So can you 
discuss that, what the impact is and what you see as a 
solution?
    Mr. Goenner. Yes. Michigan's law has a cap on the number of 
schools that state universities collectively can charter of 
150. We have eight state universities that have chartered 
schools. We have been at this cap for nearly a decade.
    And what it is done is it has stymied the ability to create 
new hope and opportunity for kids. It has also had an impact 
which has helped us tighten up on quality for schools that 
weren't performing.
    The reality is this question really connects very close to 
Chairman Miller's question, because the question we are all 
looking at across the country is how do we get more great 
schools for kids. And that means we need growth, and it also 
means we need quality.
    We believe that authorizers play a critical role that is at 
the epicenter of that question, because we are the quality 
control front on chartering new schools, and once they are 
operating we are the quality control on their operations, along 
with parents, who can vote with their feet.
    So when you put this all together, that is where we think 
it is a very powerful thing to not only create more choices for 
kids by eliminating the caps, like President Obama and 
Secretary Duncan are advocating, but also to make sure that 
they are good choices for kids and families.
    Mr. Ehlers. And do you see anything in the works to change 
the cap in Michigan? And what----
    Mr. Goenner. I----
    Mr. Ehlers. And why hasn't it been changed?
    Mr. Goenner. Yeah, quite frankly, I think this committee's 
work and the leadership of Chairman Miller and all of you goes 
a long way, along with President Obama's advocacy, and 
Secretary Duncan with his advocacy in the Race for the Top 
(sic), because the reality is what is good for kids.
    And the cap debates often get into political debates rather 
than what is good for kids. And so with this growing consensus 
around what is good for kids and charters is a strategy to help 
make that happen, we think that there is more and more 
coalescing around the idea and away from the politics. We think 
that will help immensely.
    Mr. Ehlers. Thank you.
    Mr. Shelton, a question for you. Can you detail for the 
committee the role that the administration sees charter schools 
playing in this overall nation's public school system?
    What has Secretary Duncan been talking about in the past 
few weeks? I notice he gave a speech at the National Press Club 
on the structure--on this issue.
    What are your plans? How do you expect to deal with issues 
like the caps in the states or other particular problems that 
are hindering the formation of charter schools?
    And the final specific question. Is the administration 
helping to maintain or develop a charter school system in the 
city of Washington, in our nation's capital?
    Mr. Shelton. So as I said during my testimony, there are 
two major problems that charters play in the overall strategy. 
One is, as the secretary has talked a lot about, we are going 
to be focusing on addressing the chronically failing schools 
and persistent failures.
    One of the core strategies for being able to do that is our 
charter schools. And what we found is in the worst-performing 
schools through many of our best and failed efforts that 
actually replacement in some form or fashion is actually the 
best remedy.
    Charters provide not only a mechanism for replacement but 
provide the kind of autonomy and flexibility that are needed to 
actually address the student populations and get the kind of 
flexibility and resources to actually turn around those 
situations. So that is the first prong.
    And that is why it has become so important in the context 
of the secretary's speeches in the country around the Race to 
the Top. As you know, in the stimulus package one of the 
primary levers that is focused on is this notion of intervening 
in failing schools.
    The burden of proof on states that actually are not 
allowing for charter growth, that are not providing a level 
playing field, is on them, that they have a very significant 
other mechanism for actually providing the kind of reform that 
charters can provide.
    The second point is that as the lieutenant governor said so 
very clearly, charters play a very important role in actually 
driving the front of R&D and innovation in the education 
sector.
    What they have provided is an opportunity for us to see and 
to make very clear that actually you can achieve in the 
environments where people have said that it is the 
environments, the conditions, it is the student population, it 
is the parents--that in fact, these very same students and the 
very same conditions can achieve at the highest levels, and 
they are doing it in very unique ways.
    It has been said in some circles, ``Oh, the charter schools 
aren't actually that innovative.'' Well, the reality is that if 
you actually are taking the same inputs and you are actually 
producing a very different kind of outcome, then you are 
actually doing something very different, and we need to figure 
out exactly what that is.
    So they are going to play a role not only in actually 
demonstrating it, but what we have to do is get a very clear 
R&D agenda around it, so we not only know that they work but 
how much they work, in what context, and what drivers are 
there.
    That gets to this point around Chairman Miller about how 
you then replicate.
    Chairman Miller. Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Goenner, in the early days of charter schools in 
Michigan--I served first in the state legislature, then here--
there were situations where we had uncertified teachers, not 
uncommonly in some substandard buildings right in Genesee 
County where I live.
    What has been done to change that situation? And has that 
situation been radically changed, where--the standards for 
certification and safe buildings? And what is the role of 
Central Michigan as the chartering agency?
    And what is the role of the state of Michigan as the 
funding agency in making sure that certification and safety for 
the children are maintained?
    Mr. Goenner. Terrific question. First, charter schools in 
Michigan are public schools, and so they have to give the state 
``meet'' test. They have to have certified teachers. They have 
to have highly-qualified teachers under the federal law.
    They cannot discriminate in their admissions. They have 
open enrollment. They serve special needs children. They cannot 
teach religion in violation of the establishment clause. So all 
those things that we think about as public schools are required 
of charter public schools as well.
    There were challenges in the early years. We aggressively 
addressed them. And one of the ways we did it across the state 
is we created the Michigan Council of Charter School 
Authorizers. And the universities and the other authorizers got 
together and said, ``We are going to establish common 
standards.''
    And one of those keys is these charter contracts. Each 
contract between the authorizing body and the school gets filed 
with the state of Michigan, and so the state has its check on 
it.
    More importantly, at Central Michigan University, we 
actually go out on site and we look to see if the teachers are 
certified, if they have had their criminal records checks, and 
what Michigan requires is an unprofessional disclosure.
    We also make sure that the kids are learning in the 
classroom, and so we have gotten very involved into growth 
modeling to see that--how the kids come in on day one and how 
they leave at the end of the year, and that growth over time.
    So those are really critical, that the authorizer plays an 
active role. We don't run schools, but we need to ensure that 
they are accountable, most importantly for the academic results 
and for the taxpayers.
    We work with the state of Michigan. As public schools, the 
charters are subject to the general supervision and leadership 
of the state board of education. But we as the authorizer issue 
the contract that makes them a public school and allows them to 
get state school aid.
    So there is what we call a continuum of accountability from 
the authorizing level of the state department of education to 
the federal law. And we think that we have got a pretty good 
formula of working together to make sure that at the end of the 
day kids are being served well.
    Mr. Kildee. Does the National Association of Charter School 
Authorities (sic) have any concern about any charter schools in 
Michigan on the cusp of meeting or not meeting the standards?
    Mr. Goenner. When you look at charter schools, they are not 
a monolith, so each school is different, and while we can brag 
about the ones that are at the top of the charts, we do have 
some that are not performing to standard.
    And those are typically placed on a 1-year probationary 
contract, which is essentially saying, ``Get it turned around 
or you are going to be out of business, and we are going to 
give somebody else the opportunity to take that.''
    We also try and provide some intervention and some support 
at different levels, whether it is board management, 
programming. But the key is these schools are held accountable.
    Mr. Kildee. Have you ever withdrawn a charter from a school 
that was not performing?
    Mr. Goenner. Yes, we have, and I have the battle scars to 
prove it. I ended up on ``Nightline.'' And to be honest, that 
is one of the most difficult things in my position or any other 
authorizer position, is closing a school.
    And, Congressman, I had a little girl, probably 6 years 
old, with tears in her eyes, saying, ``Mr. Goenner, why are you 
taking my school away?'' And trying to look her and her 
parents--and say, ``Well, it is because these adults didn't do 
what they were supposed to,'' is very challenging.
    So it breaks our heart, but yes, we have closed schools, 
because fundamentally that is the--it upholds the integrity of 
the idea that schools that work will continue, schools that 
don't will be sanctioned. And closure is the last resort.
    One of the things that we are developing is what we call 
surgical tools, so that rather than dropping the bomb of 
closing a school, we can go in--if there is an adult that is 
not doing things right, that the school can address that, get 
the bad actor out of there and continue on.
    So there is a lot to be learned in this area, and it is one 
of the reasons--as President Obama and Secretary Duncan are 
talking about turning around schools that aren't performing, 
there is a lot to be learned from the charter sector, because 
we have some success doing that.
    Mr. Kildee. Thank you very much, Mr. Goenner.
    Chairman Miller. Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman.
    Following up on that, Mr. Goenner, could you--do you have 
any anecdotal thoughts on the--if you were--on the adoption of 
stronger quality controls within the CSP to allow, you know, 
greater accountability and transparency in the system?
    Mr. Goenner. Absolutely. I think there are four fundamental 
things that you could do. This is something that, as the chair 
of the National Association of Authorizers, we have been 
advocating through our principles and standards. But it is also 
what I would say is the Central Michigan University model.
    First is you have got to have a performance contract. That 
needs to be an absolute essential. It lays out expectations.
    Number two is academic results. That has to be a 
requirement. That is what we are in this for, is kids. How is 
that going to be measured?
    Three is fiscal. The taxpayers, the stewardship--so annual 
financial audit must be required.
    And four is ongoing monitoring. It can't be, ``Here is your 
charter. We will see you in 5 years.'' There needs to be a 
continuous communication between the authorizing body and the 
school that is measuring progress and saying, ``Yes, you are on 
the right track,'' or, ``No, you are not. We have got to get 
this turned around.''
    And so we think that the contract, the academics, the 
fiscal and that ongoing monitoring communication are essential.
    Mrs. Biggert. Thank you. Thank you very much.
    And then, Mr. Barr, I have two grandchildren that are in a 
charter school in California, in Pacific Palisades, and they 
are--this is an elementary school, and they are very concerned 
about the fact that then they are going to go to the regular 
school, because they have had such positive outcome.
    But one of the problems--and obviously, in California, they 
are under real budget constraints, and there has been a lot of 
budget cutting within the schools, and that is happened to--
their loss of teachers as well as other schools.
    And my daughter happens to be the president of the booster 
club there, so a lot of that has fallen on them, really, to--
you know, to make up the shortfalls as much as possible, and 
they have big fundraisers that really--to do that.
    How is the funding there for the charter schools versus--
they get public school money, but is there a shortfall versus, 
you know, the regular public schools?
    Mr. Barr. Well, the shortfall is usually in facilities. The 
schools that your grandchildren go to are--were conversion 
schools where they got the property in the Palisades.
    The funding in California is really a reflection of 
people's lost confidence in the public education system. You 
know, I had a school board member on my staff, and he was 
passing a parcel tax, and my wife and I had just bought a 
house--age 45, I finally bought a house.
    And I am a liberal Democrat, so I don't think I am taxed 
enough, so--so the board member came to me. I said, ``So 
explain to me where this parcel tax--and what is it about?'' 
``Well, everybody who owns a home pays 100 bucks and it goes to 
support public education.
    I go, ``That is great, but where does the money go?'' ``It 
goes into the general fund of LAUSD.'' I said, ``Wait a second. 
You guys are drunken pirates. You guys spent almost $1 billion 
and can't open a high school. Now, if I knew the money went 
like charter school funding is in California, in blocks to the 
school in my neighborhood, that got into teacher pay and 
development for teachers, into the middle and high school in my 
neighborhood, and you can take 20 percent off the top for 
equity issues, 100 bucks--I would give you 500 bucks. I would 
give you 1,000 bucks. I would pay 5,000 bucks if I knew the 
money was spent well in the public school system, and I could 
send my kid to that system.''
    That is really the R&D lesson of charters, is you at least 
know those dollars are getting to the school site, not going to 
a school district where they carve out half of their vigorish 
and then send the rest down.
    Mrs. Biggert. Thank you.
    Then, Mr. Dunn, in Illinois we have had a shortfall of the 
students that are waiting for--to be included in the charter 
schools, and Illinois just last week passed a--Illinois 
lawmakers passed a bill--finally they have done something--that 
will allow more charter schools to be built. And some of them 
are reserved for enrolling high school dropouts and various--
various other matters.
    But what has Texas done to ameliorate the problem of not 
having enough charter schools for those that want them?
    Mr. Dunn. Yeah, thank you, Mrs. Biggert. As I mentioned in 
my testimony, unfortunately the Texas legislature failed to 
pass a bill just this past legislative session that would have 
allowed the state board of education to do--to expand charter 
schools and schools with charters in a managed way, 12 
additional charters a year, but--and----
    Mrs. Biggert. So what is the next step that--can they just 
bring it up again, or how do you----
    Mr. Dunn. Well----
    Mrs. Biggert [continuing]. How do you address that?
    Mr. Dunn [continuing]. We have a biannual legislative 
session in Texas which certainly has its advantages from our 
perspective, but it does mean that you have got to wait 2 years 
to come back and try again.
    What schools have been able to do, however--we have 215 
charters in Texas operating 460 campuses, so going to the--
Chairman Miller's question on replication, in Texas we have 
found ways, creative ways, to replicate campuses.
    Each year, the state board of education also considers 
amendments to the charter and can allow successful charters 
like KIPP Academy or IDEA Public Schools to replicate. So there 
are other ways around it. We are certainly going to be 
exploring with the Texas education agency additional 
administrative avenues that we may have.
    But as of now, they do not have the authority to grant any 
more charters.
    Chairman Miller. Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman, for having the 
hearing.
    And thank you, ladies and gentlemen, for your presentations 
this morning. They are really very thorough and engaging. We 
appreciate your contribution.
    I think it is fair to say there is a consensus on the 
committee that we want to use the vehicle of No Child Left 
Behind to enhance the growth and quality of charter schools 
throughout the country. I think that is a fair assessment.
    And I was interested in what the panelists think are the 
most effective ways we could do that. Some obvious options 
would be to increase the money that is available under the 
incentive program, the regular program, the financing for 
capital.
    But you know, I think the balance that we want to strike is 
that we do want the decision as to how many charters and what 
they should look like to be made by states and localities.
    But we certainly want to provide incentive and support for 
those states and localities--would make the decision to pursue 
the charter option at a high degree of quality.
    So what suggestions do the panelists have for us as to how 
we might implement that? And any of you that would like to jump 
in would be welcome to.
    Mr. Barr?
    Mr. Barr. Well, you know, currently on the old legislation, 
my interpretation is that the state superintendent of public 
instruction in California--the responsibility falls upon him or 
her if a failed district continues to fail and doesn't come up 
with a reform plan. Well, we have 90 failed school districts in 
the state of California, and Los Angeles Unified is the 
biggest.
    And so what I would like to see is, you know, when I push 
the superintendent on this issue, ``Oh, well, there is no 
capacity.'' But really, it is--you can always see past that in 
the politics that plays out in California.
    There should be an alternative person who can be where the 
buck stops to just the superintendent. Either grant a governor, 
mayor, legislature--somebody else should be able to step in so 
it is not just one person who says, ``Enough is enough with the 
bait and switch reform, and let's really dig down. This is 
killing our state.''
    Mr. Andrews. So you would suggest that we vest an official 
other than the chief state school officer with the authority to 
determine what to do with a district that is chronically failed 
AYP? That is what you would like us to do?
    Mr. Barr. I would say keep the state superintendent----
    Mr. Andrews. Yes.
    Mr. Barr [continuing]. But also create alternatives, 
because what happens----
    Mr. Andrews. But if there is--which of the alternatives 
gets the final say?
    Mr. Barr. Well, if a state superintendent won't fix the 
problem, a governor--another alternative to just the state 
superintendent should be able to step in----
    Mr. Andrews. Yes.
    Mr. Barr [continuing]. And have the authority in a 
continually failing school district to do something about it.
    Mr. Andrews. Okay.
    Lieutenant Governor?
    Ms. O'Brien. Mr. Andrews, I think that is a very important 
question, and I think one of the limitations on charter schools 
you have heard is facilities, and Congress has been very 
helpful in addressing facilities.
    Another limitation is the number of really strong 
principals that are moving through the system. And help 
creating principal academies, principal leadership 
development--there are a variety of ways right now that--every 
district is reinventing the wheel.
    But finding out best practices and making it possible, 
state by state, to start increasing the flow of strong 
principals into the school districts is going to help a lot 
open up the schools, because we need to work on the schools of 
education for teachers.
    There is very little for principals, and we have learned 
from charter schools that very strong leadership is absolutely 
essential.
    Mr. Andrews. So you would like to see us subsidize and/or 
create learning institutions where strong principals could be--
--
    Ms. O'Brien. Or seed money to get something going----
    Mr. Andrews. Right.
    Ms. O'Brien [continuing]. And then let the state with the 
districts take it on long term for themselves.
    Mr. Andrews. I appreciate that suggestion.
    Dr. King?
    Dr. King. Just a couple things on the facilities point. You 
know, there are--in a lot of cities around the country, there 
are under-capacity district buildings, whole floors, numbers of 
classrooms that are empty.
    So creating incentives that would incentivize districts to 
give that space to high-performing charter schools--so have it 
linked to performance, but allow that space to be used by 
charters. I think that would be incredibly helpful.
    There is also state and federal money that is supporting 
school construction that charters don't always have access to, 
so making sure that there are incentives in place to give, 
again, high-performing charters access to those funds.
    Mr. Andrews. I know that this committee's bill that the 
chairman introduced does address that problem. It passed the 
floor a few weeks ago. Okay.
    Mr. Goenner?
    Mr. Goenner. Yes. I think first, recognize all charter 
school laws aren't the same, so while 40 states and the 
district have laws, some of them produce high-quality charters; 
some don't. Some hardly produce any charters.
    Number two, multiple authorizers is critical, so that 
schools and groups that want to start have different places 
they can go, some based on match, some based on quality, but 
that there is more than one, because there is not one best 
system.
    And so having a group of authorizers that are committed--
they have the will and the capacity, we call it--is essential--
--
    Mr. Andrews. Do you think that is something----
    Mr. Goenner [continuing]. That they want the schools.
    Mr. Andrews [continuing]. That we should require under 
federal law or incentivize? I see my time is up. If you could 
just briefly answer.
    Mr. Goenner. I think you can incentivize it, absolutely.
    Mr. Andrews. Okay. All right.
    Thank you, Mr. Chairman.
    Thank the ladies and gentlemen of the panel.
    Chairman Miller. Thank you.
    Mr. Roe?
    Mr. Roe. Thank you, Mr. Chairman.
    And thank you all for being here. I have finally become 
encouraged after months of being discouraged about how the 
public school system is going in this country. I think one of 
the major crisis in America is education, not health care, 
because----
    Chairman Miller. That is why they put you on this 
committee, to get your encouragement.
    Mr. Roe. That is right.
    If you get a good job, as Mr. Barr pointed out, you are 
going to make enough money to buy your health care. And so I 
think education is where the real challenge is in this nation 
going forward. And listening to all of you all, I heard a 
common theme.
    And, Dr. King, I will just sort of paraphrase you a little 
bit, that it looks to me like what you are all agreed on was a 
longer school day, more time in school, smaller schools--and I 
am not sure how big the classrooms are. In Tennessee, the 
average classroom size is 20.
    And what I also heard was--I read in your testimony, Dr. 
King--was you selected one teacher out of 80 to 100 that 
applied, so you got quality teachers, no question about it.
    And I also heard Mr. Barr--it was a--15 or 20 percent more 
money is paid to the teachers there, which you all have 
selected--and good educators. And all of us know it is 
difficult. It is like a beautiful painting. What is a good 
teacher? We all know what they are, but it is hard to describe 
what they are.
    And then I heard accountability both from the students, and 
from the educators and the teachers, and it actually as--a 
building has not been your hindrance. A big, beautiful building 
doesn't educate anybody. Teachers do and parents do.
    And then what I also heard--a common theme was a will to do 
better, to be better.
    And I think, Mr. Barr, I look at Detroit school system 
where I heard the secretary say the other day that 75 percent 
of those students dropped out. I mean, that is a city that is 
going to fail, that cannot succeed with that, and we cannot--
failure is not acceptable.
    We cannot fail, because we are failing our future if we do. 
And I thank you all for what you are trying to do.
    What sizes are the charter schools? When you mention--as we 
say--smaller, what does that mean?
    Dr. King?
    Dr. King. For us, it is about 200 to 350 students in each 
school, and class size--the average is somewhere between 25 and 
30.
    Mr. Barr. Yes, the emphasis on class size is not as 
important as the size of the school, because I have some--all 
of our schools are around 500 kids.
    And when we make site-based decisions collectively with the 
teachers, some schools think that in higher--in high school you 
can have 70 kids in a class, or you can have 20. When I ended 
up going to college, I had terrific professors where I had 
1,000 people in the class and really bad professors that had 
10.
    So in the earlier stages, I think that is as important. But 
the culture of a school--I don't think any public school in 
America should exceed 500, because at--500 is really that point 
break where every kid gets the need and nourishment of an adult 
who knows something special about them. And I think as you get 
past that, you lose that ability.
    If you had $25,000 to send your kid to a private school, 
and you were lucky enough to have that kind of lifestyle, you 
would never send your kid to a private school that has 1,000 or 
2,000 or 3,000 kids. That is just a natural parental instinct 
that smaller is better.
    It is not the only answer, but it creates the opportunity 
for those teachers to apply their craft in a very accountable 
way.
    Mr. Roe. Well, we discussed this forever as the mayor of 
our city before I came here, and we tried to keep elementary 
schools at 500, so it looks like we were on task there, but our 
high school has 2,200 students. It is a real challenge.
    And I just see it as an opportunity. With what you all are 
passed, only 3 percent of the children in America are going to 
charter schools. And we have got, what, nationwide a 40 percent 
dropout rate. Is that somewhere about right? And the charter 
schools do much better.
    Why don't we move more toward that? And I have never been 
to a private school in my life. I have said this in this 
committee before. I overdosed on education. I have been to 
school 24 years.
    So the thing that bothers me is that we are not doing that, 
and it sounds like we have a mechanism in the public system to 
do that.
    Mr. Barr. Well, I would say that----
    Chairman Miller. Let the record show that heads were 
nodding horizontally and vertically. [Laughter.]
    Mr. Barr. Well, I have a 3-year-old and a 1-year-old, and I 
live in a neighborhood in Los Angeles that the elementary 
schools--there is not a charter school in that city that is as 
good as that LAUSD elementary school. But it is 300. Parents 
are heavily involved. There is high expectations.
    I feel like I would have failed if I can't convince the 
school district to take the middle and high school and have 
their schools look like a Green Dot school or the Roxbury Prep 
or Uncommon Schools or a KIPP school--and has the same 
characteristics, because ultimately, you want to organize 
yourself out of a job.
    I will build a charter school for my kids if I have to, but 
I would rather change the public schools in my neighborhood to 
look exactly like our schools and create the best public school 
system.
    Mr. Roe. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Congresswoman Fudge?
    Ms. Fudge. Thank you, Mr. Chairman.
    And thank you all of you for being here today.
    I am from the state of Ohio, so I think I look at things a 
little differently because most of our charter schools are not 
public charter schools, so you may hear me coming from a very 
different vantage point.
    But I do want to just go a little further with the 
discussions that we have been having about replication and what 
we do about public education. I listened to you talk about how 
successful these charters are, and I think almost every one of 
you except maybe one used the word ``failure'' for traditional 
public schools.
    If, indeed, we are here today to ask for more money for 
charters--and we are talking about serving somewhere between 10 
and maybe 15 percent of all the children that go to school--
should we not be talking about the other 85? Should we not be 
talking about putting more money into traditional public 
schools to make them successful schools?
    Because if you know what works, which you have said you 
do--if you know what works, why can we not then take those 
models and make traditional public schools what they ought to 
be?
    Because I am sitting here thinking to myself, ``Eighty-five 
to 90 percent of the kids in public schools today are 
languishing in failing schools--'' is what basically you have 
said. I would think that it would be a better use of money to 
try to help the majority of the kids instead of just the 6 to 
10 percent that you are talking about today.
    Help me think through that and--anyone?
    Lieutenant Governor?
    Ms. O'Brien. Thank you very much. I don't think we meant 
that all the other kids are in failing schools, because there 
are fabulous public schools all over the country.
    We are really focusing on what can we do about the kids who 
are against great odds to get a good education and go on, so--
the kids in struggling schools, the kids from low-income and 
minority communities in particular. So I think we have been 
rather focused on that.
    And I would say there is absolutely nothing stopping any 
public school from doing the exact same things you have been 
hearing here. But you have to have a will to change.
    And I think what we are seeing is that when you have a will 
to turn around the life chances of a group of kids and you are 
willing to work in different ways and try out different models, 
you can achieve wonderful things.
    But if you don't have that will, just telling a school, 
``You have to be like Green Dot, and you have to do what they 
do.'' I mean, there is nothing stopping them. So I think what 
we are trying to say is we can show that there is not only hope 
but the possibility of great outcomes and performance, but you 
have to want to do it.
    And we are trying to create opportunities for the people 
who want to make that happen, and not force it on people who 
don't.
    Ms. Fudge. No, no, no, I am not--I certainly agree with 
you. I think you do have to have the will. But what I am 
asking--I guess my real question is there are many public 
school systems across this country who really do have a desire 
to change.
    But if we start to put all of our resources into doing 
something that keeps taking five kids from here, five kids from 
here, five kids from here, then what we have, in effect, done 
is said to those people who are left, ``You know what? Figure 
it out.''
    But if we have already paid for you to figure it out, why 
would we not say to these schools look, we have put all of this 
money, taxpayers' money--into creating what you are calling 
innovative schools and all of these other terms you have used.
    Now it is time for the federal government, who you are here 
asking for money today, to say we need to impose some of these 
things on public education, because what you are asking us to 
do is take federal dollars and do what you want us to do.
    Mr. Dunn. If I might, Ms. Fudge, I am--I think you are 
asking exactly the right question, and one of the things that 
the charter movement envisioned 15 years ago when it first got 
started is that charter schools would be laboratories of 
innovation----
    Ms. Fudge. Exactly.
    Mr. Dunn [continuing]. As you have heard many say, and that 
those things that work would transfer over to the traditional 
public school system.
    And it is that second stage of that process that I think we 
have not done as good a job as a system, and from both the 
traditional side and the charter side to date.
    One thing that I think that from our perspective, one thing 
that, you know, we think that would help that a lot--and it 
goes to a suggestion Dr. King made to a previous question, and 
that is this notion of co-location.
    We have got urban school districts all over this country 
with empty space. What is the biggest challenge for charter 
schools? Finding facilities.
    So if we can find a better way to encourage those 
traditional school districts to invite charter schools onto 
their campus, it will better utilize space, will provide a 
charter school access to one of the--their bigger problems and, 
I think more importantly, will better allow that sort of 
transfer of successful innovation from charters and among 
charters to the traditional schools, because the faculties will 
be on the same campus.
    I think there is just much more room for collaboration. So 
the co-location notion we think is very----
    Chairman Miller. Mr. Polis?
    Mr. Dunn [continuing]. Critical.
    Mr. Polis. Thank you so much, Mr. Chairman. You know, I 
think all of us on this committee, regardless of ideology, wish 
that there was a single silver bullet that would make sure that 
every child in America had a great school and opportunity to 
succeed.
    Some on this committee might wish that it was as simple as 
spending more money. Some might wish it was as simple as 
saying, ``We are going to have vouchers.'' Some might wish it 
was having all big schools or all small schools.
    But as we all know, the data does not indicate that there 
is one simple solution that would help every kid in this 
country succeed. But there is also a ray of hope.
    There are instances and examples of success with what some 
of you have done and others have done, a ray of hope for kids 
that otherwise would become merely another statistic and 
instead can go on to graduate high school and college.
    And where we have these institutes of success, let's expand 
them. Let's provide more seats. Let's expand the models. Let's 
replicate. Because we do know some examples of what works, and 
we do know also that there is no one single model, no one 
curriculum, that can instantly solve all our woes.
    My first question is for Mr. Shelton. First I would like to 
compliment him and the administration on their strong support 
of public charter schools.
    Both President Obama and Secretary Duncan have repeatedly 
called for federal investment in innovative programs with a 
proven track record of helping schools meet high standards and 
close the achievement gap. It is really exciting to see such 
strong leadership from the administration on this issue.
    I understand the department is seeking flexibility for more 
effective use of current program funding to better meet the 
charter sector's growth needs. In many ways, we have a dual 
mission. We have innovation. We talked about that, one value 
charter schools bring. And the other one is replicating and 
expanding successful models, growth.
    I would like to know your thoughts on how you envision more 
broadly the role of charter schools in ESEA--specifically, what 
charter schools policies we might look at in terms of expanding 
and replicating top-performing schools as a separate and 
distinct goal of kind of promoting innovation and new models.
    Mr. Shelton. Mr. Polis, I think you hit the point right on 
the head, just as Chairman Miller called out. The big challenge 
today in innovation is actually the innovation of how we 
actually scale success. That is the code we have to crack.
    What we have the opportunity to do is to actually take 
these high performers--we are pushing for greater evidence 
through data systems to figure out which ones are high 
performing--and then to make it easier for them to actually 
replicate.
    There are three different ways that we actually--making 
sure we do that. One is by leveraging the programmatic 
questions, really, that we are talking about to actually allow 
some direct grant-making to charter networks and other high-
performing schools that actually are at the top ends of 
performance in order to allow them to replicate without having 
to go back to normal pathways for accessing the startup grants.
    The second is that they ought to be first in line for the 
kinds of facilities allotments and other credit enhancement 
opportunities we create to reduce the burden on facilities 
which, as has been noted earlier, is one of the critical 
barriers to facilities.
    The third thing that actually needs to happen is that we 
actually need to get much more clear about what the pathway is 
for taking what their practices are and learning about them and 
then allowing them to expand to other schools.
    And so while there are some dollars dedicated to evaluation 
of the charter school program, we specifically need a program 
around the highest performers to understand exactly how we take 
lessons learned and apply them to the broader field.
    Mr. Polis. Thank you.
    The next question is for Lieutenant Governor O'Brien.
    You mentioned how charter schools were initially sometimes 
viewed with suspicion by many districts.
    Can you expand on how some of those difficult relationships 
have been addressed in Colorado and how we have overcome these 
misperceptions and suspicions to the point where you actually 
have school districts that want to seek more innovation and 
more charter schools in their district?
    Ms. O'Brien. Thank you, Mr. Polis. What we have seen is 
that as charter schools are able to demonstrate that they are 
actually succeeding in educating kids that otherwise would be 
falling further behind, the public has gotten more comfortable 
with them. They are attracting more parents.
    And in fact, in Denver public schools, which had been 
losing enrollment, they have been gaining enrollment over the 
last couple of years, and it is attributed almost entirely to 
parents coming back into the district because there is a nearby 
charter school that is doing well.
    So I think there is nothing quite like success, and I think 
as people have realized that they are public schools with the 
same controls and, you know, protection of kids, and that you 
can match up a child's interest in math or science or art and 
have a good, solid, basic academic program to go with that, you 
are matching up kids with schools in a better way than just 
going to what is geographically close.
    And the public is very comfortable with that now, and the 
budget for Denver public schools as a whole is better because 
they have added 1,000 school kids to the district. Thank you.
    Chairman Miller. Thank you.
    Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman. And I am sorry that I 
am running in between committees here today.
    Could you try and--I don't know. It is difficult sometimes 
to give a percentage, but obviously there is a self-selection 
process in charter schools, as there were in magnet programs 
and other programs that school districts have engaged in over 
the years.
    And I wonder if you could just--perhaps just go down the 
line. I mean, in terms of the success of charter schools and 
in--you know, the flip side of that is those that aren't 
successful--Mr. Chairman, yes? Did----
    Chairman Miller. [Off mike.]
    Mrs. Davis. Oh, okay.
    What part of that do you think is due to the self-selection 
process, and--be that of parents, teachers, administrators, 
kids, that make the decision that that is a program that 
attracts them?
    What percentage of it is the fact that, in most charter 
schools, teachers can be hired, fired--you know, there is a 
component of control there that is different, perhaps, from 
other public schools?
    And finally, just the fact that there is a different kind 
of curriculum that perhaps is part of selection but may be 
different as well. I mean, what part of that self-selection 
process do you think is inherent in the fact that these are 
schools that kids are choosing, parents are choosing?
    Mr. Barr. Yes, I would say that--and it has been the 
biggest learning curve for me--was at age 40 when I started 
this, I had to challenge my own preconditioning of people who 
don't look like me and how their motivation and--you know, we 
serve a population in Los Angeles where 85 percent of the kids 
we serve are new immigrants or new Americans.
    And if you look at it--so sometimes people will try to 
explain away our results and--by saying we get selective 
parents, and the--if you actually peel back and you look at it, 
well, all those people just risked everything to come to this 
country, and they have challenged their comfort zones in ways 
that I and you and most of us can't even imagine.
    And what do they do it for, for the hero's welcoming and 
the high-end jobs? No. They did it for their kids. So they take 
jobs under the poverty level. They are uninsured. They are the 
political problem, fingers pointed at them all the time. And 
their one chance at the American dream is these public schools.
    So what happens when they come over to America? After 2 or 
3 years, or 10 years, do they forget because they are treated 
so well about why they came here? They are all motivated. They 
don't know how to approach the system. It is not a very 
democratic system.
    Our African American families whose families are pieced 
together like mine were--you know, their--they have generations 
of failure in the public schools. They don't really know how to 
advocate and be part of that.
    Yes, in that group there are some that do find some charter 
schools. I would tell you that the second five schools that we 
opened around Jefferson High School in South Central Los 
Angeles, one of the worst schools in Los Angeles, 80 percent of 
the attendance area applied to go to those five schools rather 
than go to Jefferson High School. Now, I got a ``C'' in stats, 
but that is a pretty good sample set.
    Locke High School is a total--we have taken everybody, you 
know, the 200 special day care kids in that school, the 200 
kids who come in and out of juvenile camps. So hopefully it 
proves that model--you kind of--we are trying to get to the 
point where you can't explain away the results. And I share the 
same concern there.
    Mrs. Davis. Anybody else want to comment quickly?
    Mr. Goenner. I talk to a lot of parents and schools, and 
almost to a person what they say they love about the charter 
schools is that they are small; they are safe; they are family-
friendly; their students, their children, get individualized 
instruction; and most importantly, they can talk to who is in 
charge.
    And that ability to talk to the school leader who has got 
decision-making authority is critical to parents, because they 
feel like their voice is heard and that they are empowered.
    Dr. King. I just wanted to cite to the study that Mr. 
Shelton mentioned earlier. The Boston Foundation did this 
really interesting study looking at the high-performing 
charters in Boston and tracking the performance of students who 
got into the lottery versus students who applied for the 
lottery but didn't get in--so it was sort of eliminating the 
issue of selection bias, since everyone had applied to the 
lottery--and found that the high-performing charters were 
making a difference of upwards of 20 or 30 percent in terms of 
students' achievement.
    And so I think there is a lot of evidence that although 
there may certainly be some selection bias just in that 
exercise of having a lottery, our kids are coming to us looking 
very much like the students in the district in terms of free 
and reduced-price lunch, special ed, et cetera.
    They are coming to us dramatically behind academically, and 
they are making tremendous progress. I think the more charters 
there are in a community, the less selection bias you have, 
because it becomes sort of understood by families as one of the 
options that are available to them.
    Chairman Miller. On the questioning list--and we have begun 
the vote--I have Mrs. McCarthy, Mr. Hinojosa, Ms. Titus, Ms. 
Shea-Porter, Mr. Tierney, and I--unless there is serious 
objection, I would ask you each to limit your time to 3 
minutes, and I think that will--everybody will have a chance to 
ask questions before we have to dash to the floor.
    Mrs. McCarthy?
    Mrs. McCarthy. Thank you.
    My questions will be very rapid so I can hear from 
everybody. I believe in charter schools, but the more I am 
actually listening to this panel, I am getting really 
frustrated.
    And I will go with Ms. Fudge and Mrs. Davis. Why can't we 
do this to all our public schools? I mean, we just basically 
closed down General Motors because they didn't do a good job.
    If that is the case, then putting all our money into the 
charter schools, which would still be a smaller percentage of 
students, you know, excelling--what are we supposed to do with 
all the other children?
    So you have got to convince me here that we should be 
taking all this and somehow make all our public schools that 
way.
    Chairman Miller. Anybody? Anybody?
    Mr. Barr. I would say, you know, I have offered now three 
superintendents, ``Take me out of the charter school business, 
please. You know, let's take this model of small schools, 
decentralizing, putting dollars in the classroom, high 
expectations and involving the parents, but let's really do it. 
Let's not talk around it and then keep the 60,000 out of the 
100,000 people that work at LAUSD employed that aren't 
teachers. You have got to be more efficient but not talk around 
it.''
    And so I agree with you. I think about this every day. I 
don't want to build charter schools anymore. I want our public 
schools in Los Angeles to look like that R&D that is working, 
that we all know works, as a parent and as an advocate for 
charter schools. I totally agree with you.
    Dr. King. And I would say that urban districts that are 
making the most progress are trying to make the district 
schools more like charters--that is, that they are giving 
principals the ability to extend their school day, greater 
flexibility around hire/fire power. They are making changes 
that allow those schools to make decisions that look more like 
the decisions charters are making.
    The other point I would make is that in cities where there 
are schools that have been chronically failing--that is, that 
there are schools that for 30 years--schools like Locke--30 
years failing the community generation after generation, I 
think those schools ought to be closed.
    And they should be replaced with high-performing schools, 
and that could be high-performing charters. If high-performing 
district schools have a portion of their staff that is 
interested in trying to take over that failing school and make 
a difference, we should do that.
    But I agree with you, we should hold schools accountable 
for their performance the same way we should hold companies 
accountable for their performance.
    Mrs. McCarthy. Finishing that up, though, unfortunately--
and you mentioned about that, but the parents that fight to get 
their children into charter schools are pushing to get their 
child to have the best education.
    The second point is we are the federal government. We can't 
take over, unfortunately, and say what we want to say to all 
the public schools.
    Third point, and the most important--the superintendent and 
the principal--they set the tone. They hire the teachers, 
basically. And they are the ones that are overseeing all of our 
children.
    Thank you, Mr. Chairman.
    Chairman Miller. Where were we here?
    Mr. Hinojosa? Oh, he left. Voted with his feet.
    Ms. Titus?
    Ms. Titus. Thank you very much, Mr. Chairman.
    Nevada has charter schools that are limited for non-at-risk 
students but not limited for at-risk students in terms of the 
number--excuse me. We were recently ranked number 22nd out of 
41 states by the Center for Education Reform, and we got a 
grade of ``B'' for the strength of our charter law.
    We have one of the best in the country, Andre Agassi 
Academy, but we have also had lots of problems. I don't know 
what we could do to get an ``A,'' if that would make a 
difference, if there is some federal standards we ought to try 
to look at imposing on all schools or not.
    But I was going to ask you what we could do to get an 
``A,'' but I would like to go back to the previous question. I 
think the thing that we are overlooking are state dollars for 
education. We could do all these wonderful things if states 
could afford it.
    Nevada had to cut education funding last cycle, which is a 
terrible thing to do. It should have been last and not first. 
But you are talking about building more schools because they 
are going to be smaller. You are talking about longer days, 
longer terms, more cost.
    You know, how do we get over that if we are going to spread 
this out to public schools?
    Mr. Goenner. I would like to try and answer that. One of 
the key lessons is that we have to fund students rather than 
institutions. And when you fund students, it empowers parents 
in a key way because now they have some say.
    When they are not happy and they vote with their feet, the 
money follows the students, and that creates a real incentive 
to schools to be responsive, to change what--the environments, 
and to deliver results.
    And so I think that is absolutely one of the key things 
that you can do through the incentives, is make sure that we 
are funding students and quality education rather than 
institutions.
    Dr. King. I think this is a unique moment where, as you 
say, states are really eager to have access to federal dollars 
because of the financial straits that they are in, and so there 
is an opportunity to leverage that eagerness to incentivize 
states to do the kinds of things that have been described and 
to make better decisions about how they spend the money that 
they do have, both state money and federal money.
    And there are resources that are going into programs that 
haven't been demonstrated to work. There are resources that are 
going towards salaries of employees whose work has been of low 
quality and who aren't demonstrating results.
    And those resources would be better invested in high-
performing schools, whether that is district schools or charter 
schools that are high-performing, and helping those schools 
create more schools like them, build teacher training programs, 
build leadership training programs, that try and take those 
best practices to scale.
    Mr. Shelton. It is certainly important to also point out--
Steve talked about how in California the major differential is 
actually facilities. In most places, charter schools actually 
operate at a lower funding level than their traditional public 
schools in the same places--significantly less in some places.
    So in fact, it is not clear that the assumption that it has 
to cost more is true.
    Mr. Goenner. If I could just add, in Michigan the schools 
we charter on average, according to our state department of 
education, are receiving over $2,000 less per student. But 
again, we don't want to look at this as an us-versus-them.
    This is about kids and about great education, whether they 
are in a traditional district, in a charter public school, 
private school or parochial school. What we want to do is what 
works, and we want to share that with everybody so we can learn 
from each other, because kids are the key.
    Mr. Barr. I will tell you the same thing I told Andre 
Agassi when I went to see his school.
    Chairman Miller. You have got to do it very quickly.
    Mr. Barr. Really quickly, is don't come to Los Angeles and 
look at a Green Dot school. Come to New York, where you have 
total alignment with the mayor, the chancellor and the 
president of the teachers' union, with a free facility and 
$12,000 per pupil. How successful is that school going to be?
    When you have that kind of political alignment, that is--
you are never going to get to an ``A'' until----
    Chairman Miller. Ms. Shea-Porter?
    Mr. Barr [continuing]. You have that kind of alignment.
    Ms. Shea-Porter. Thank you. I appreciate this.
    And I listened to this with great interest. Just last week 
I was with the principal in my own community, with about 25 
percent dropout.
    And Lieutenant Governor, the words that you had used in 
your testimony was accountability, welcoming data, culture of 
achievement, high performance standards, leadership of a good 
principal and innovation.
    And you also used the words, Dr. King, talking about high 
standards, academics, autonomy. Well, you know, that is what I 
heard from the principal when I spoke, and I know I have heard 
that from many other teachers.
    So can't and shouldn't you be in the public schools, the 
other ones, providing the great talent that you have and 
sharing this? I mean, is it just so impossible for you to go 
into a regular public school?
    Clearly, you have a vision, a mission. You understand what 
needs to be done. Don't they need you there?
    Dr. King [continuing]. So, you know, my family spent over 
70 years collectively working for--just my parents, for the New 
York City public school district.
    But one of the things that I saw happening to the folks I 
know who are principals in district schools is that they are 
facing tremendous constraints on their ability to do the things 
that I believe are critical to the success of my students.
    And honestly, for me, the draw of starting a charter school 
was having that freedom around budget, around staffing, around 
curriculum instruction, around school culture, to do the things 
that were necessary to get great results for kids.
    Ms. Shea-Porter. But, interrupting, can you slice through 
that? Is it that impossible to work through that, when I know 
that there are principals in other schools who would like 
exactly what you have? Is it really that impossible a mission?
    Dr. King. I don't think it is impossible from a policy 
standpoint. There is very clear policy things we could change. 
There are certainly people who are able to do it, and I--you 
know, as was mentioned before, in every city there are those 
examples of the incredibly high-performing schools.
    But we shouldn't build a system where it takes 
extraordinary heroism to deliver quality education to low-
income kids. And so, you know, to me the question that is 
before you, before all of us, is how do we build a system that 
allows there to be lots of schools that are excellent, not just 
islands of excellence.
    Ms. O'Brien. And thank you for that question. I just want 
to say we are in a really unique point in history. I mean, we 
haven't had this understanding of where we are with kids and 
what it is possible to do before.
    So could we have done this before? Yes, but I don't think 
we knew. I mean, right now we have the information we need. We 
have the experience of this R&D effort. And you all have the 
chance to capture this moment in history and say, ``We can 
fulfill this American dream of an equal education for 
everyone.''
    And part of it is we need to get a system that is used to 
operating a slightly different way to change, and part of it is 
we have to remove--I just love that comment. You know, you 
shouldn't have to be a hero to have the courage to open up one 
of these schools. It ought to be the way we just do all of 
education.
    And I think we are here to say we believe you can move the 
country forward.
    Chairman Miller. Mr. Tierney?
    Ms. Shea-Porter. Thank you.
    Mr. Tierney. Thank you.
    Look, I have a problem with some of the things that are 
going on here. I think we are talking around and around here. 
Some charter schools succeed. Some don't. Some public schools 
work. Some don't.
    And, Lieutenant Governor, you just said it, all right? Now 
we know what to do. We have the research. We have the idea of 
what we want to do. And the problem is that you didn't try to 
do that in existing schools, all right? That would have been 
heroic, you know, and we should have to be heroic for our 
schools like that.
    You sort of went around it. You sort of took a bypass on 
the system and said, ``We will set up a parallel system, and we 
will do what we now have the research to do over here for 2.6 
percent of the kids, and the other can all go fish.''
    So that is an incredible duplicate cost. Now you want money 
for duplicate buildings. You want to get your principals 
special select money to make them better when we should be 
doing it for all principals. You want to do the same thing for 
highly qualified teachers.
    So I mean, I have a little bit of a problem with why we 
didn't have the heroic nature of just doing it for the schools 
now that we know what can be done, and instead we said, ``You 
know? It is much easier to go out and set up a special school 
with a small number of kids. I can highly qualify those 
teachers. I can get a principal there. I can do all that, but I 
am not going to take on the problem of doing it for all the 
schools that are having difficulty.''
    Essentially, we are giving up on the other students and 
pulled out. You know, we have that research. And I think, you 
know, we ought to apply it to the existing schools. Now, what 
we lack is the political will to do that, all right? All of 
us--you, us.
    We are setting up these alternative schools over here 
because we don't have the wherewithal to put it in place where 
it should be. We know exactly what should be done and we don't 
do it.
    Instead, we are taking large amounts of money, separating 
it out for small amounts of kids, having some good public 
schools going on, and not focusing on those that are not so 
successful, and putting it in place all of these things.
    Now, we say we are going to do it. That is No Child Left 
Behind. It is all the things we are looking at on the new bill 
coming along. But will we put the resources there? Will we 
really have the political will? That should be the question.
    When you take out those 2.6 percent of the kids and all of 
their parents, you have basically taken out a lot of people who 
would be agitating to get that done in the larger system, 
including yourselves at this table here.
    So you know, shouldn't we support existing successful 
schools and then apply all of the things we now know should 
work and would work, put in those new things, and put the 
resources towards that and getting it done?
    That, in my estimation, would be heroic, because everything 
you have said here is essentially things that we know should be 
in our public schools--extended learning time where it is 
necessary, principal autonomy, excellent teachers--it means we 
have to pay them, and you are able to do that in your schools; 
we haven't done that--high expectations, data-driven 
decisions--all these things we are putting in place--high 
levels of parental involvement--you know, it is always going to 
be a struggle.
    You managed to get people who say--have enough wherewithal 
and political pull and say I want to go to that school because 
they are getting specific money. The ones left behind may not 
have that quotient of high-level parental involvement.
    So I think that it always comes back--it looks to me like 
we are setting up a duplicate system with duplicate costs for 
facilities, for training, for all of these things, and we are 
just sort of working around the problem. I wish we had the 
political will to hit it right on the head and get it done.
    I yield back, Mr. Chairman.
    Chairman Miller. Thank you very much to all of you for 
spending time with us this morning.
    I think, in fact, that the charter school movement, after 
some fits and starts over the last decade, is rolling out as we 
had hoped it might, and that is that it would be on the cutting 
edge, that it would provide innovation, that it would give us 
an alternative model to look at, and hopefully it would give us 
the results that would encourage us to move in that direction 
in the district schools.
    In some places that has happened. Other places it hasn't. 
But the fact of the matter, I think, is that the--both in some 
district schools and in the charter school movement the most 
important piece of information for me is exactly the population 
that we have wrung our hands over for 30 years--or 50 years in 
this country about whether or not they can succeed, whether or 
not they can learn.
    I mean, imagine asking questions like this about a newborn 
baby--will this baby be able to learn? Can they really--will 
they really have the gumption to do it? If they are offered the 
opportunity, will they take advantage of it?
    I think charter schools and a number of district schools 
have proven the fact that this exact population can excel. It 
can succeed at high levels of performance. And it can enter 4-
year colleges. It they can graduate from 4-year colleges. And 
they can succeed in the rest of American society and the 
economy.
    And the idea, with all due respect to my colleagues, that 
you can simply walk into the public school system, the district 
school system, and say, ``We would like to do it this way,'' in 
most districts that would be years of debate and waiting for a 
whole series of events to take place, so you didn't interrupt 
anything that was already in place.
    And you know what? One of the things that I worry all of 
the time--I came here when I redid the foster care system, when 
we had 6-month reviews for children placed in foster care.
    And it dawned on me at one point--I was a little slow--that 
if a child had a 6-month review at 6 months, it was their 
entire life. If they had one at 1 year, it was half of their 
life. And we were still wondering what to do with the children.
    For people to suggest that somehow we can wait with these 
children who are entering school or in pre-K, and we can wait 
for a decade of change or two decades of change is to sentence 
those 60,000 students who entered that stadium to failure.
    Now, some of them magically will figure it out and navigate 
the existing system. But we ought to use this as a beacon and a 
lantern to show us the way on what we ought to expect and have 
a right to expect, and what parents, more importantly, have a 
right to expect.
    These parents may be poor, but the waiting list suggests 
that they are not stupid. They know what they want. They have 
the same instincts for their children as anybody, whether they 
live in the Palisades or they live in East L.A. The fact of the 
matter is that is what they want for their kids.
    They are lining up in the District of Columbia. They are 
lining up all over the country to ask for a better educational 
opportunity.
    I think the trick is to integrate this into the models in 
the district schools and get rid of the impediments that stand 
in place and have stood in place for 30 years, to apply the 
best resources to the most difficult cases, to try to achieve 
the best outcomes for those children.
    We know all of the politics--everyone sitting here know all 
of the politics that keep those schools failing for 30 and 40 
years in plain sight. You can drive by them on your way to 
work. You can drive by them on your way to shopping. And they 
continue to fail.
    And it is not an accident. It is not an accident any 
longer. And I think now we have the emergence of success for 
these young children, for these middle school children, for 
these high school students that now we ought to just crave as a 
nation to replicate.
    So thank you so much for the contributions that you have 
made to this effort, to the success and the growing success of 
the charter school movement, and hopefully for the policy of 
this committee to be able to see how we have to integrate this 
into the education policy of this nation.
    And again, I want to thank the leadership of the president 
and the secretary of education for making this a public 
discussion. Thank you very much for your participation.
    Mr. Ehlers. Amen, brother.
    Chairman Miller. Amen. There you go.
    See, and now I have got to only beat 91 of my colleagues to 
the floor to vote, so hopefully somebody is slower than me.
    [Whereupon, at 12:00 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
